App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14224
Non-Argument Calendar
D.C. Docket No. 0:17-cv-61597-JEM
ERIC FERRIER,
Plaintiff-Appellant,
versus
CASCADE FALLS CONDOMINIUM
ASSOCIATION, INC.,
BANK OF AMERICA, NA
LISA KEHRER,
TODD STOLFA,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
(July 15, 2020)

App. 2
Before JORDAN, NEWSOM, and BRANCH, Circuit
Judges.
PER CURIAM:
Eric Ferrier, proceeding pro se, appeals the district
court’s dismissal of his civil action for lack of subject
matter jurisdiction. The 48-page civil complaint
against Cascade Falls Condominium Association,
Bank of America, and two individuals—Todd Stolfa
and Lisa Kehrer—-raised a variety of claims related to
and arising from state foreclosure proceedings on Ferrier’s condominium and related loan in 2012 and 2014.1
Among the relief requested, Ferrier sought an eviden­
tiary hearing as to the authenticity of the mortgage as­
signment, a declaration that the loan servicer had no
mortgage interest in the property, injunctive relief bar­
ring any and all persons from asserting or claiming an
interest in the property adverse to Ferrier’s title, and
compensatory and punitive damages.2 On appeal, he
1 Specifically, Ferrier alleged (1) discrimination under the
Fair Housing Act (“FHA”), 42 U.S.C. § 3604 et seq., and Fair
Housing Amendments Act; (2) fraud in violation of 11 U.S.C.
§ 548 and 18 U.S.C. § 1344; (3) fraudulent representations in vio­
lation of Uniform Commercial Code § 2-314 and Fla. Stat.
§ 718.203; and (4) unfair or deceptive acts or practices in violation
of 15 U.S.C. § 45, the Fair Credit Reporting Act (“FCRA”), 15
U.S.C. § 1681 et seq., the Fair Debt Collection Practices Act
(“FDCPA”), 15 U.S.C. §§ 1692-1692p, and an unidentified statute
purportedly entitled the “Federal Consumer Fraud and Deceptive
Business Practices Act.”
2 We note that this is Ferrier’s third-filed federal action re­
lated to the foreclosure proceedings. He first filed a federal com­
plaint against Bank of America in 2015, which was dismissed
without prejudice due to his failure to pay the filing fee.

App. 3
presents several arguments in support of his claim
that the district court erred in dismissing his action.
Because we conclude that the district court did not err
in dismissing the action for lack of subject matter ju­
risdiction, we affirm.
Under the Rooker-Feldman3 doctrine, district
courts lack subject matter jurisdiction over “cases
brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the
district court proceedings Commenced and inviting dis­
trict court review and rejection of those judgments.”
Lozman v. City of Riviera Beach, 713 F.3d 1066, 1072
(11th Cir. 2013) (quoting Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 284 (2005)); see also
28 U.S.C. § 1257(a) (vesting the authority to review fi­
nal state court judgments exclusively in the Supreme
Court of the United States). The Rooker-Feldman doc­
trine applies “both to federal claims raised in the state
Thereafter, in 2016, upon the dismissal of his motion to reopen
the state court proceedings, Ferrier filed a “notice of removal”
with an attached “counterclaim and complaint,” which is very
similar to the underlying complaint here. The district court ulti­
mately remanded the case to state court, noting that the removal
was untimely and the complaint did not raise viable claims under
either federal question or diversity jurisdiction. Ferrier subse­
quently filed the underlying complaint in 2017. Notably, Ferrier
has continuously pursued various legal actions against defendant
Cascade Falls Condominium Association which have been ad­
versely determined against him, and he has been declared a ‘Vex­
atious litigant” under Florida law and is prohibited from
initiating any pro se actions in Florida’s 17th Judicial Circuit
without leave of the courts.
3 Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923); Dist. Of
Columbia Court ofAppeals v. Feldman, 460 U.S. 462 (1983).

App. 4
court and to those ‘inextricably intertwined’ with the
state court’s judgment.” Casale v. Tillman, 558 F.3d
1258,1260 (11th Cir. 2009). “A claim is inextricably in­
tertwined with a state court judgment if it would ‘ef­
fectively nullify the state court judgment or it
‘succeeds only to the extent that the state court
wrongly decided the issues.’ ” Id. (internal citation and
quotations omitted). We review de novo a district
court’s determination that it lacked subject matter ju­
risdiction. Id.
Here, Ferrier was a “state-court loser” with respect
to the state foreclosure proceedings regarding his con­
dominium—proceedings which had completed before
Ferrier filed the underlying federal action. And, as set
forth above, the relief requested by Ferrier in his com­
plaint clearly invited the district court to review and
reject the state court’s judgments in the foreclosure
proceedings. Thus, pursuant to Rooke.r-Fd.dman, the
district court correctly concluded that it lacked juris­
diction over Ferrier’s complaint.4 Lozman, 713 F.3d at
1072; Casale, 558 F.3d at 1260.

4 Ferrier argues that the district court deprived him of his
right to access the courts by staying his request for discovery and
then dismissing his cause of action for lack of subject matter ju­
risdiction. We reject this argument outright. While occasionally
limited discovery may be necessary to resolve certain jurisdic­
tional questions, Ferrier has not asserted such discovery was nec­
essary in this case. Furthermore, we have encouraged courts to
resolve jurisdictional questions and eliminate legally unsup­
ported claims “before the discovery stage, if possible,” so as to
avoid wasting judicial resources and causing the parties to bear

App. 5
Ferrier asserts that the district court could not dis­
miss the case because he had already obtained a de­
fault judgment against defendants Stolfa and Kehrer
due to their failure to respond to the complaint, but the
existence of a default judgment cannot overcome a lack
of subject matter jurisdiction. Indeed, “if the court de­
termines at any time that it lacks subject-matter juris­
diction, the court must dismiss the action.” See Fed. R.
Civ. R 12(h)(3). Moreover, any judgment rendered
when the court lacked jurisdiction is void and without
legal effect. See Burke v. Smith, 252 F.3d 1260, 1263
(11th Cir. 2001) (explaining that, under the Rules of
Civil Procedure, certain fundamental defects render a
judgment void, including if the district court lacked
subject matter jurisdiction when it entered the judg­
ment).
Ferrier also argues that his case should be permit­
ted to proceed because it is an “independent action”
seeking relief from the state court judgments, pursu­
ant to Rule 60(d) of the Federal Rules of Civil Proce­
dure, based on fraud upon the court. But we have not
recognized a fraud exception to the Rooker-Feldman
doctrine, and we decline to do so now. Indeed, such an
exception would effectively gut the doctrine by permit­
ting litigants to challenge almost any state-court judg­
ment in federal district court merely by alleging that
“fraud” occurred during the state-court proceedings.

unnecessary costs. Chudasama v. Mazda Motor Corp., 123 F.3d
1353, 1368 (11th Cir. 1997).

App. 6
Accordingly, for the reasons set forth above, we
conclude the district court properly dismissed Ferrier’s
cause of action for lack of subject matter jurisdiction.5
AFFIRMED.

5 Because we conclude that the district court properly dis­
missed the complaint for lack of subject matter jurisdiction, we do
not reach Ferrier’s claim that his lawsuit is not frivolous, that his
filings are not abusive, and that he in fact stated facially plausible
claims sufficient to survive a motion to dismiss for failure to state
a claim. Finally, to the extent Ferrier raises a new claim in his
reply brief concerning the Appellee’s alleged failure to not serve
all the defendants, we do not consider this claim. See Timson v.
Sampson, 518 F.3d 870,874 (11th Cir. 2008) (“[W]e do not address
arguments raised for the first time in a pro se litigant’s reply
brief.”)

App. 7
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-61597-CIV-MARTINEZ/Snow
ERIC FERRIER,
Plaintiff,
v
CASCADE FALLS CONDO­
MINIUM ASSOCIATION,
INC., BANK OF AMERICA,
N.A., LISA KEHRER and
TODD STOLFA,
Defendants.
REPORT AND RECOMMENDATION
(Filed Feb. 15, 2018)
THIS CAUSE is before the Court on Cascade Falls
Condominium Association, Inc.’s Motion for Stay of
Proceedings or, Alternatively, Motion to Dismiss with
Prejudice (ECF No. 22) and Bank of America N.A.’s Mo­
tion to Dismiss (ECF No. 32) which were referred to
Lurana S. Snow, United States Magistrate Judge for a
Report and Recommendation.

I. BACKGROUND
The pro se Plaintiff commenced this action on Au­
gust 10,2017 against Cascade Falls Condominium As­
sociation (“Cascade Falls”), Bank of America, N.A.
(“BOA”), Lisa Kehrer and Todd Stolfa. The 203

App. 8
paragraph Complaint alleges housing discrimination,
fraud, and unfair or deceptive acts or practices against
Defendants and others.
Plaintiff alleges the following: In December 2006,
he contacted Countrywide Home Loans (“Country­
wide”) to finance the purchase of a condominium lo­
cated at 530 N.E. 15th Court, Fort Lauderdale, Florida.
Plaintiff alleges that although he provided accurate in­
formation as to his financial status on the loan appli­
cation, Countrywide inflated the information so as to
qualify him for the loan. Plaintiff also alleges that the
appraiser inflated the value of the property, comparing
it to units with more vehicle spaces, private backyard
entrances, and to “properly managed and maintained”
condominium complexes. In 2009, Countrywide be­
came BAC Home Loan Services LP. In 2011 Plaintiff’s
note was assigned to Bank of New York Mellon.
Plaintiff alleges that the unit he purchased had
leaks which he unsuccessfully attempted to have re­
paired by making a claim with the home owners asso­
ciation’s (“HOA”) insurance. In 2009, Plaintiff became
unemployed. Property values began to plummet mak­
ing it impossible to re-finance the loan on his unit. Ow­
ing to purported mismanagement by the homeowners
association, which remained under the control of the
developer, assessments were applied to unit owners.
When the Countrywide commenced foreclosure, Plain­
tiff hired legal counsel. Initial attempts to modify the
loan were unsuccessful, owing to “lost” paperwork,
however, in June 2010, Plaintiff was conditionally ap­
proved for a loan modification.

App. 9
Plaintiff alleges that leaks in his unit caused mold.
It appears that he made HOA payments to a mortgage
escrow account until the water damages were repaired.
The HOA commenced a foreclosure action, however, in
April 2011, mediation resulted in an agreement be­
tween Plaintiff and the HOA. Pursuant to the agree­
ment, Plaintiff was to resolve the deficiency in his
payment of dues in exchange for the HOA removing
mold from his unit. Although he alleges he attempted
to do so, Plaintiff did not transfer the escrow balance
to the HOA. The HOA then obtained a favorable ruling
against Plaintiff in court. The HOA did not rectify the
mold situation and Plaintiff has suffered health issues
as a consequence.
II. RECOMMENDATIONS OF LAW
A. Cascade Falls’ Motion to Stay or to
Dismiss with Prejudice
Cascade Falls supplies additional relevant facts.
Plaintiff filed a nearly identical complaint, involving
the same parties in this district in 2016.16-61124-CivCooke/Torres. That case commenced when Plaintiff re­
moved the foreclosure action against him to this court.
Plaintiff made counterclaims which were based upon
the same set of operative facts as those asserted in this
case. Judge Cooke remanded the 2016 case to state
court as untimely removed and for lack ofjurisdiction.1

1 Plaintiff moved for clarification and reconsideration on
June 1, 2017. Judge Cooke stayed the case on June 23, 2017,

App. 10
According to Cascade Falls, Plaintiff has litigated the
same issues in no less than three jurisdictions.
According to Cascade Falls, Plaintiff’s claims arise
from its alleged breach of a 2011 settlement agree­
ment, a 2010 foreclosure action, and bodily injury
Plaintiff claims to have suffered from mold exposure.
Based upon the facts alleged, Plaintiff asserts causes
of action for fair housing discrimination and fraud.
Cascade Falls requests an order staying this ac­
tion pending resolution of the 2016 matter pending be­
fore Judge Cooke. Alternatively, it requests the Court
dismiss the complaint either based upon res judicata,
the statute of limitations, or the failure to join indis­
pensable parties.
Plaintiff contends that this court should exercise
its ancillary jurisdiction in this action. He also ex­
plains he is asserting fraud and fraud upon the court
as an independent basis for federal jurisdiction. Plain­
tiff further contends that he should be permitted to ar­
gue his case regardless of how frivolous the action may
be. He nevertheless asserts that his claims are not friv­
olous, he has never had a chance to present his federal
allegations in federal court, and he should at least be
given the opportunity to obtain discovery before the ac­
tion is dismissed outright.
The doctrine of res judicata “bars the filing of
claims which were raised or could have been raised in
pending her ruling on the motion. To date, Judge Cooke has not
ruled on the motion, nor has she lifted the stay.

App. 11
an earlier proceeding.” Ragsdale v. Rubbermaid. Inc..
193 F.3d 1235, 1238 (11th Cir. 1999). Its purpose is to
protect against “the expense and vexation attending
multiple lawsuits,” to conserve judicial resources, and
to minimize the possibility of inconsistent decisions. Id.
In this circuit four elements must be present: (1) a final
judgment on the merits; (2) the decision was rendered
by a court of competent jurisdiction; (3) the parties are
identical in both suits; and (4) the same causes of ac­
tion are involved in both cases. IdCascade Falls’ motion for remand in the 2016 liti­
gation in front of Judge Cooke reveals the following: In
October 2010 Cascade Falls sought foreclosure in
Broward County Circuit Court based on Plaintiff’s fail­
ure to pay his maintenance obligations for his condo­
minium. In April 2011, the parties entered into a
settlement agreement which required Plaintiff to pay
an amount towards his past due maintenance obliga­
tions. Plaintiff defaulted on that obligation, and in
April 2012, Cascade Falls obtained a final judgment of
foreclosure. The property was sold at a foreclosure sale
to Cascade Falls in September 2012. Plaintiff at­
tempted to re-open the matter in Broward County Cir­
cuit Court in 2014, however, the court granted Cascade
Falls’ motion to dismiss, retaining jurisdiction for the
sole purpose of hearing Cascade Falls’ motion to desig­
nate Plaintiff a vexatious litigant. Plaintiff removed
that action to this Court on May 25, 2016, at which
time he attached a “Counter-Claim Complaint,” which
is nearly identical to the Complaint in this action.

App. 12
Thus, it appears that the matter pending before
Judge Cook is based upon the same operative facts,
and involves the same parties as in this case. “[W]here
two actions involving overlapping issues and parties
are pending in two federal courts, there is a strong pre­
sumption across the federal circuits that favors the fo­
rum of the first-filed under the first-filed rule.” Manuel
v. Convergvs Corp.. 430 F.3d 1132, 1135-36 (11th Cir.
2005). If Judge Cooke reconsiders her order in the 2016
action, a subsequent decision on the merits could, in
theory, conflict with any decision made in this case.
Therefore, in the interests of judicial economy, this
matter should be stayed as to Cascade Falls.
B. Bank of America N.A.’s Motion to Dismiss
Although Bank Of America raises different
grounds in its motion to dismiss, the same principles
ofjudicial economy and avoidance of conflicting rulings
apply to the claims against it, which also were raised
by the Plaintiff in the 2016 litigation pending in front
of Judge Cooke. Accordingly, this matter also should be
stayed as to Bank of America.
III.

CONCLUSION

This Court having considered carefully the plead­
ings, arguments of counsel, and the applicable case law,
it is hereby

App. 13
RECOMMENDED as follows:
1. That Cascade Falls Condominium Association,
Inc.’s Motion for Stay of Proceedings (ECF No. 22) be
GRANTED, and its Alternative Motion to Dismiss with
Prejudice (ECF No. 22) be DENIED, without prejudice
to renew following final resolution of the matter pend­
ing before Judge Cooke.
2. The Plaintiff’s Cross-Motion to Compel Dis­
covery (ECF No. 30) be DENIED.
3. That Cascade Falls Condominium Association,
Inc. and Bank of America, N.A.’s Joint Motion for En­
largement of Time to Meet and File Joint Scheduling
Report (ECF No. 27) be GRANTED, and that the par­
ties be permitted to submit a joint scheduling report
after the stay in this case is lifted.
4. That Bank of America, N.A.’s Motion to Dis­
miss (ECF No. 32) be DENIED, without prejudice to
renew following final resolution of the matter pending
before Judge Cooke.
5. That the remaining pending motions (ECF
Nos. 34, 35, 36, and 49) be DENIED, without prejudice
to renew, if necessary, when the stay in this case is
lifted.
The parties will have 14 days from the date of
being served with a copy of this Report and Recommen­
dation within which to file written objections, if any,
for consideration by The Honorable Jose E. Martinez,
United States District Judge. Failure to file objections
timely shall bar the parties from a de novo

App. 14
determination by the District Judge of an issue covered
in the Report and shall bar the parties from attacking
on appeal unobjected-to factual and legal conclusions
contained therein, except upon grounds of plain error
if necessary in the interest of justice. See 28 U.S.C.
§ 636(b)(1); Thomas v. Arn. 474 U.S. 140, 149 (1985);
Henlev v. Johnson. 885 F.2d 790, 794 (1989); 11th Cir.
R. 3-1 (2016).
DONE AND SUBMITTED at Fort Lauderdale,
Florida, this 15th day of February, 2018.
/s/ Lurana S. Snow
Copies to:
LURANA S. SNOW
All Counsel of Record
UNITED STATES
MAGISTRATE JUDGE
Eric Ferrier (Via U.S. Mail)
178 Columbus Ave., #237002
New York, NY 10023

App. 15
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
FORT LAUDERDALE DIVISION
Case Number: 17-61597-CIV-MARTINEZ-SNOW
ERIC FERRIER,
Plaintiff,
vs.
CASCADE FALLS CONDO­
MINIUM ASSOCIATION,
INC., BANK OF AMERICA,
N.A., LISA KEHRER and
TODD STOLFA,
Defendants.
ORDER ADOPTING MAGISTRATE JUDGE
SNOW’S REPORT AND RECOMMENDATION
(Filed Mar. 8, 2018)
THE MATTER was referred to the Honorable Lurana S. Snow, United States Magistrate Judge, for a
ruling on all pre-trial, non-dispositive matters, and for
a Report and Recommendation on all dispositive mat­
ters [ECF No. 7]. Magistrate Judge Snow filed a Report
and Recommendation [ECF No. 52], recommending
that (a) Defendant Cascade Falls Condominium Asso­
ciation, Inc.’s (“Cascade Falls”) Motion for Stay of
Proceedings [ECF No. 22] be GRANTED, and its Alter­
native Motion to Dismiss with Prejudice [ECF No. 22]
be DENIED, without prejudice to renew following final

App. 16
resolution of the matter pending before Judge Cook; (b)
Cascade Falls and Defendant Bank of America, N.A.’s
(“Bank of America”) Joint Motion for Enlargement of
Time to Meet and File Joint Scheduling Report [ECF
No. 27] be GRAINED, and the parties be permitted to
submit a joint scheduling report after the stay in this
case is lifted; (c) Plaintiff’s Cross-Motion to Compel
Discovery [ECF No. 30] be DENIED; (d) Bank of Amer­
ica’s Motion to Dismiss [ECF No. 32] be DENIED,
without prejudice to renew following final resolution of
the matter pending before Judge Cook; (e) Plaintiff’s
Reply to Bank of America NA Motion to Dismiss with
Prejudice and Affirmation to Crossmotion to Compel
Defendants Discovery [ECF No. 34] be DENIED, with­
out prejudice to renew, if necessary, when the stay in
this case is lifted; (f) Cascade’s Motion for Enlarge­
ment of Time to File Responses to Plaintiff’s Discovery
[ECF No. 35] be DENIED, without prejudice to renew,
if necessary, when the stay in this case is lifted; (g)
Plaintiff’s Motion to Tax Costs and for Sanctions [ECF
No. 36] be DENIED, without prejudice to renew, if nec­
essary, when the stay in this case is lifted; and (h)
Plaintiff’s Motion for Judicial Default Against Bank of
America NA [ECF No. 49] be DENIED, without preju­
dice to renew, if necessary, when the stay in this case
is lifted. This Court has reviewed the entire file and
record and notes that no objections have been filed. Af­
ter careful consideration, it is hereby:
ADJUDGED that United States Magistrate
Judge Snow’s Report and Recommendation [ECF No.
52] is AFFIRMED and ADOPTED.

App. 17
Accordingly, it is ADJUDGED that
1. Cascade’s Motion for Stay of Proceedings
[ECF No. 22] is GRANTED, and its Alternative Mo­
tion to Dismiss with Prejudice [ECF No. 22] is DE­
NIED, without prejudice to renew following final
resolution of the matter pending before Judge Cook.
2. Cascade Falls and Bank of America’s Joint
Motion for Enlargement of Time to Meet and File Joint
Scheduling Report [ECF No. 27] is GRANTED, and
the parties are permitted to submit a joint scheduling
report after the stay in this case is lifted.
3. Plaintiff’s Cross-Motion to Compel Discovery
[ECF No. 30] is DENIED.
4. Bank of America’s Motion to Dismiss [ECF No.
32] is DENIED, without prejudice to renew following
final resolution of the matter pending before Judge
Cook.
5. Plaintiff’s Reply to Bank of America NA Mo­
tion to Dismiss with Prejudice and Affirmation to
Crossmotion to Compel Defendants Discovery [ECF
No. 34] is DENIED, without prejudice to renew, if nec­
essary, when the stay in this case is lifted.
6. Cascade’s Motion for Enlargement of Time to
File Responses to Plaintiff’s Discovery [ECF No. 35] is
DENIED, without prejudice to renew, if necessary,
when the stay in this case is lifted.

App. 18
7. Plaintiff’s Motion to Tax Costs and for Sanc­
tions [ECF No. 36] is DENIED, without prejudice to
renew, if necessary, when the stay in this case is lifted.
8. Plaintiffs Motion for Judicial Default Against
Bank of America NA [ECF No. 49] is DENIED, with­
out prejudice to renew, if necessary, when the stay in
this case is lifted.
9. The Clerk shall ADMINISTRATIVELY
CLOSE this case for statistical purposes only. This
shall not affect the substantive rights of the parties.
Once the stay is lifted, the Clerk shall reopen this case.
DONE AND ORDERED in Chambers at Miami,
Florida, this 8 day of March, 2018.
/s/ Jose E. Martinez
JOSE E. MARTINEZ
UNITED STATES
DISTRICT JUDGE
Copies provided to:
Magistrate Judge Snow
All Counsel of Record

App. 19
United States District Court for the
Southern District of Florida
Eric Ferrier v. Cascade Falls
Condominium Ass’n, Inc., et al.
17-61597
Docket Order, August 2, 2019
Full docket text for document 61:
PAPERLESS ORDER denying without prejudice [54]
Plaintiff’s Motion to Deem Facts Admitted as Against
Defendants for Failure to Comply with Fed. R. Civ. Pro.
36 upon Tacitly Conclusion of the Stay, to renew, if nec­
essary, when the stay in the case is lifted. Signed by
Judge Jose E. Martinez on 8/2/2019. (ean)

App. 20
United States District Court for the
Southern District of Florida
Eric Ferrier v. Cascade Falls
Condominium Ass’n, Inc., et al.
17-61597
Docket Order, August 2, 2019
Full docket text for document 67:
ORDER OF DISMISSAL. This matter is before the
Court upon a sua sponte review of the record. Although
the pleading makes reference to federal statutes, the
Court finds that Ferrier, who is a serial filer, has as­
serted federal claims that are patently frivolous,
wholly insubstantial, and in form only. See generally,
Robinson v. Am. Legion Post 193, 2008 WL 962875, at
*2 (N.D. Fla. Apr. 7, 2008). Ferrier’s allegations, in es­
sence, constitute a collateral attack on a previous state
foreclosure lawsuit. Accordingly, this case is DIS­
MISSED for lack of subject matter jurisdiction, and the
Clerk is directed to DENY pending motions as moot
and maintain this case CLOSED. Signed by Judge Jose
E. Martinez on 10/2/2019. (mws)

App. 21
Bank of America Corporation
Statement of Facts
BANK OF AMERICA - RMBS
In late 2007 and early 2008, Bank of America
structured, offered and sold over $850 million in resi­
dential mortgage-backed security (“RMBS”) certificates
in a securitization trust known as the BOAMS 2008-A
securitization to investors, including federally insured
financial institutions. Bank of America marketed
these RMBS as backed by Bank-originated, prime
mortgages. Bank of America issued these RMBS certif­
icates using a shelf registration statement and other
offering documents filed with the U.S. Securities and
Exchange Commission (“SEC”) by a Bank of America
affiliate, Banc of America Mortgage Securities, Inc.
(“BOAMS”).
In the BOAMS 2008-A offering documents, Bank
of America represented that “each mortgage [backing
the securitization] ... is underwritten in accordance
with guidelines established in Bank of America’s Prod­
uct and Policy Guides.” It further represented that “[a]
loan is considered to be underwritten in accordance
with a given set of guidelines if, based on an overall
qualitative evaluation, the loan is in substantial com­
pliance with such underwriting guidelines.” Bank of
America also represented that it “permits [a loan ap­
plicant’s debt-to-income ratio] to exceed guidelines
when the applicant has documented compensating fac­
tors for exceeding ratio guidelines. . . .”

App. 22
At the time Bank of America made these represen­
tations, its internal reporting showed that “wholesale”
mortgages—that is, loans originated through thirdparty mortgage brokers—had decreased in perfor­
mance and were experiencing an increase in under­
writing exceptions. Additionally, a report that Bank of
America prepared for qualified institutional buyers
showed that wholesale loans from an industry lender,
on average, experienced a higher Conditional Prepay­
ment Rate (“CPR”) than retail mortgages. These re­
ports were received by Bank of America employees
involved in the BOAMS 2008-A securitization prior to
its marketing and sale. Bank of America did not dis­
close this information in the BOAMS 2008-A offering
documents.
Bank ofAmerica also did not disclose in the BOAMS
2008-A offering documents the percentage of whole­
sale mortgage loans collateralizing the securitization.
Over 70 percent of the mortgage loans collateralizing
the BOAMS 2008-A securitization consisted of mort­
gages Bank of America originated through its whole­
sale channel. Approximately six weeks before the
transaction closed, Bank of America disclosed prelimi­
nary data relating to the percentage of wholesale mort­
gage loans collateralizing the BOAMS 2008-A RMBS
to certain investors but it did not disclose the percent­
age to all buyers of the BOAMS 2008-A offering.
The preliminary loan tapes containing the infor­
mation about the wholesale loan percentage that Bank
of America provided to certain investors were “ABS in­
formational and computational material” because they

App. 23
were “factual information regarding the pool assets
underlying the asset-backed securities, including orig­
ination . . . and other factual information concerning
the parameters of the asset pool appropriate to the na­
ture of the underlying assets, such as . . . the programs
under which the loans were originated.” Bank of
America did not publicly file the preliminary loan
tapes containing this information with the SEC and
only disclosed it to the aforementioned investors, who
ultimately invested.
Bank of America did not have third-party, loanlevel due diligence conducted on the specific mortgage
loans collateralizing the BOAMS 2008-A securitiza­
tion. This was contrary to its past practice. Third-party,
loan level due diligence had been conducted on previ­
ous BOAMS securitizations that closed in March,
April, and August 2007; these diligence reviews re­
vealed that some of the mortgages reviewed did not
conform to Bank of America underwriting standards.
Third-party due diligence also had revealed data er­
rors in the preliminary loan tapes that Bank of Amer­
ica had provided to investors. Bank of America did not
disclose in the BOAMS 2008-A offering documents
that third-party, loan-level due diligence was not con­
ducted on the loans collateralizing BOAMS 2008-A.
MERRILL LYNCH - RMBS
Throughout 2006 and 2007, Merrill Lynch issued
approximately 72 RMBS consisting of thousands of
subprime mortgage loans. Merrill Lynch acquired

App. 24
some of these loans from third-party originators in
whole loan transactions. Merrill Lynch also securitized
loans from two originators in which Merrill Lynch had
an ownership interest: Ownit Mortgage Solutions, Inc.
(“Ownit”) and First Franklin Financial Corporation
(“First Franklin”).
Merrill Lynch made certain representations in the
offering documents it filed with the SEC concerning
the loans securitized in these RMBS. Merrill Lynch
also submitted information about these RMBS to the
ratings agencies. Prior to making these representa­
tions, Merrill Lynch received information as part of its
due diligence process showing that, for certain loan
pools, significant numbers of the loans it was consider­
ing for securitization did not conform to the represen­
tations made in the offering documents it filed with the
SEC.
In particular, the offering documents for Merrill
Lynch subprime RMBS regularly included representa­
tions that “[a] 11 of the Mortgage Loans were originated
generally in accordance with the [originator’s] Under­
writing Guidelines.” The offering documents also regu­
larly represented that exceptions were made to these
guidelines on a “case-by-case basis” based on the pres­
ence of “compensating factors.” (According to offering
documents filed with the SEC, the underwriting guide­
lines were “primarily intended to assess the ability and
willingness of the borrower to repay the debt and to
evaluate the adequacy of the mortgaged property as
collateral for the mortgage loan.”) The offering docu­
ments also represented that the loans securitized by

App. 25
Merrill Lynch conformed to applicable federal, state,
and local laws.
Prior to making these representations, employees
at Merrill Lynch’s Whole Loan Trading Desk con­
ducted due diligence on the loans to be purchased. This
due diligence process typically included a review of the
files for a sample of the loans from each pool. This re­
view was conducted by a third-party vendor and over­
seen by Merrill Lynch. The sample would contain
randomly selected loans, as well as loans selected us­
ing “adverse sampling” techniques designed to identify
loans that had particular characteristics that Merrill
Lynch believed warranted further review. This loan file
review included an evaluation of the loans’ compliance
with the originators’ underwriting guidelines (the
“credit review”), as well as an evaluation of whether
the origination of the loans complied with federal,
state, and local laws, rules, and regulations (the “com­
pliance review”).
The third-party vendors that performed the credit
and compliance reviews assigned grades to each of
the loans they reviewed. The vendor graded a loan an
“Event Grade 1” loan, or EV1, if it determined that the
loan was underwritten according to the originator’s
underwriting guidelines and in compliance with rele­
vant rules and regulations. Loans that the vendor de­
termined did not strictly comply with applicable
underwriting guidelines, but that had sufficient com­
pensating factors, were rated as an EV2. Vendors
graded a loan an EV3 when the loan was not originated
in compliance with applicable laws and regulations,

App. 26
the loan did not comply with applicable underwriting
guidelines and lacked the sufficient offsetting compen­
sating factors, or the loan file was missing a key piece
of documentation.
The underwriting and compliance attributes con­
sidered by the vendors in grading loans as EV3 in­
cluded, among other things, loans to borrowers who
had recently declared bankruptcy in certain lending
programs where bankrupt borrowers were not permit­
ted; “high cost” loans that appeared to violate state
lending laws; debt-to-income ratios that did not comply
with applicable product guidelines; inadequate or
missing documentation of income, assets, and rental or
mortgage history for the relevant loan program; and
stated incomes the vendors concluded were unreason­
able.
Merrill Lynch’s subprime due diligence manager
received the vendors’ reports and the results of the due
diligence reviews throughout the whole loan acquisi­
tion process. The vendors’ reports were also available
to others in Merrill Lynch’s RMBS business, including
those on the trading desk and in the securitization
group. These reports showed that some due diligence
samples had an EV3 rate as high as 50% of the loans
sampled. Merrill Lynch typically did not review the un­
sampled portion of the loan pools to determine whether
they also included loans with material credit or com­
pliance defects.
In addition, due diligence personnel and, in cer­
tain instances, traders on Merrill Lynch’s Whole Loan

App. 27
Trading Desk, reevaluated certain loans graded EV3
by the vendor and, in certain circumstances, overruled
the vendor’s grade and “waived” particular loans into
the purchased pool. Merrill Lynch’s contemporaneous
records did not in all cases document Merrill Lynch’s
reasons for directing the due diligence vendors to re­
grade loans.
In an internal email that discussed due diligence
on one particular pool of loans, a consultant in Merrill
Lynch’s due diligence department wrote: “[h]ow much
time do you want me to spend looking at these [loans]
if [the co-head of Merrill Lynch’s RMBS business] is
going to keep them regardless of issues? . . . Makes you
wonder why we have due diligence performed other
than making sure the loan closed.”
In 2006 and 2007, Merrill Lynch’s due diligence
vendors provided Merrill Lynch with reports reflecting
that the vendors graded certain of the sampled loans
as EV3. For some pools, the reports showed that the
vendors had graded more than 20 percent of the sam­
pled loans as EV3. The following examples provide the
approximate percentages of EV3 loans that were pre­
sent in the samples taken from particular pools and
the approximate percentage of those EV3 loans that
were waived in by Merrill Lynch for acquisition:
•

Sampled loans from five pools of loans origi­
nated by ResMAE Mortgage Corporation fed
into four securitizations issued by Merrill
Lynch Mortgage Investors Trust in 2006:
MLMI 2006-RM1, MLMI 2006-RM2, MLMI
2006-RM3 and MLMI 2006-RM5. For one

App. 28
pool, the vendor graded 24% of the due dili­
gence sample EV3, and Merrill Lynch waived
into the purchase pool 16% of these loans. For
a second pool, the vendor graded 32% of the
due diligence sample EV3, and Merrill Lynch
waived into the purchase pool 14% of these
loans. For a third pool, the vendor graded 22%
of the due diligence sample EV3, and Merrill
Lynch waived into the purchase pool 27% of
these loans. For a fourth pool, the vendor
graded 57% of the due diligence sample EV3.
Finally, for a fifth pool, the vendor graded 40%
of the due diligence sample EV3, and Merrill
Lynch waived into the purchase pool 50% of
these loans.
•

Sampled loans from two pools of loans origi­
nated by Mortgage Lenders Network USA,
Inc. fed into MLMI 2006-MLN1, a securitiza­
tion issued by Merrill Lynch Mortgage Inves­
tors Trust in 2006. Vendors graded 22% and
23% of the due diligence sample EV3 for these
two pools. For the latter sample, Merrill Lynch
waived into the purchase pool 22% of the
loans that had received an EV3 rating.

•

Sampled loans from two pools of loans origi­
nated by WMC Mortgage Corporation fed into
two securitizations issued by Merrill Lynch
Mortgage Investors Trust in 2006: MLMI
2006-WMC1 and MLMI 2006-WMC2. For
these two pools, the vendors graded 22% and
45% of the loans in the due diligence sample
EV3. For the latter sample, Merrill Lynch
waived into the purchase pool 26% of the
loans that had received an EV3 rating.

App. 29
•

Sampled loans from a pool of loans originated
by Accredited Home Lenders, Inc. fed into
MLMI 2006-AHL1, a securitization issued by
Merrill Lynch Mortgage Investors Trust in
2006. For this pool, vendors graded 55% of
the due diligence sample EV3. Merrill Lynch
waived into the purchase pool 31% of the
loans that had received an EV3 rating.

Merrill Lynch securitized most of the EV3 loans it
waived in and acquired in this fashion, typically within
a matter of months.
These due diligence results are consistent with a
“trending report” prepared for client marketing pur­
poses by one of Merrill Lynch’s due diligence vendors
(later described by the vendor to be a “beta” or test re­
port) that tracked EV3 and waiver rates in the samples
from the Merrill Lynch loan pools that the vendor re­
viewed from the first quarter of 2006 through the sec­
ond quarter of 2007. During those six quarters, the
vendor reported that it reviewed 55,529 loans for
Merrill Lynch. The vendor reported that 12,888 of the
loans reviewed, or 23%, received an initial grade of
EV3. The report notes that 4,099 loans, or 31.8% of the
loans that received an initial EV3 grade, were “waived”
into the purchase pools by Merrill Lynch.
Through the due diligence process in 2005 and
2006, Merrill Lynch also learned that certain origina­
tors were loosening their underwriting guidelines, re­
sulting in Merrill Lynch’s identifying, for example,
an increasing number of loans with unreasonable
stated incomes. Merrill Lynch’s due diligence manager

App. 30
brought this to the attention of Merrill Lynch’s head
of whole loan trading in a memorandum written in
November 2005. Merrill Lynch, however, continued to
acquire and securitize loans from some of these origi­
nators without substantially altering its disclosures
to investors. A year later, in December 2006, Merrill
Lynch’s due diligence manager again brought the loos­
ening of originator guidelines to the attention of the
head of whole loan trading in another memorandum.
Merrill Lynch still continued to acquire and securitize
loans from some of those originators without substan­
tially altering its disclosures to investors.
With its acquisition of originator First Franklin
in December 2006, Merrill Lynch vertically integrated
all significant aspects of its RMBS business, from orig­
ination through securitization. This integration gave
Merrill Lynch greater visibility into First Franklin’s
loan origination practices. Following its acquisition of
First Franklin, Merrill Lynch sometimes reviewed a
smaller due diligence sample when securitizing First
Franklin loans than it had when acquiring and secu­
ritizing loans from First Franklin prior to the acquisi­
tion. In an email, one Merrill Lynch employee stated
that certain post-acquisition First Franklin loans were
being securitized “without the equivalent of a whole
loan due diligence” and as a result “valuation and other
credit kickouts will not occur” to the same extent as
prior to the First Franklin acquisition. Moreover, for a
period of time in 2007, Merrill Lynch gave its wholly
owned subsidiary First Franklin the authority in cer­
tain circumstances to make the final decision about

App. 31
what First Franklin loans should be waived in and se­
curitized. For example, according to a May 2007 report,
the due diligence vendor graded 7% of the loans in one
sample of First Franklin loans EV3 and 58% of those
loans were waived into the purchase pool. Most of
these loans were ultimately securitized by Merrill
Lynch.
The offering documents for Merrill Lynch sub­
prime RMBS also made representations concerning
the value of the properties that secured the mortgage
loans it securitized. In particular, the offering docu­
ments made representations to investors concerning
the loan to value (“LTV”) and combined loan to value
(“CLTV”) ratios of the securitized loans. Originators
generally made their LTV and CLTV determinations
by comparing the appraised value of the property at
the time of origination or the purchase price of the
property (whichever was lower) to the amount of the
loan or loans secured by the property.
Merrill Lynch hired third-party valuation firms
to test the reasonableness of the appraised values of
mortgaged properties. These checks were performed
through a variety of methods that generated valuation
estimates, including (i) “automated valuation models,”
or “AVMs,” (ii) desk reviews of the appraisals by li­
censed appraisers, and (iii) broker price opinions. After
reviewing the relevant data, the valuation firm would
provide its results to Merrill Lynch. Merrill Lynch had
an internal “tolerance” of 10 to 15%. As a result of this
practice, Merrill Lynch accepted certain loans for pur­
chase and securitization where the reported appraised

App. 32
value at the time of origination was as much as 10 to
15% higher than the valuation firm’s estimated value
of the property. In addition, some of the RMBS issued
by Merrill Lynch potentially contained loans with an
LTV in excess of 100%, based on valuations obtained
from AVMs. The offering documents did not disclose
facts about Merrill Lynch’s “tolerance” levels.
The conduct described above with respect to
Merrill Lynch all occurred prior to Bank of America’s
acquisition of Merrill Lynch in January 2009.
COUNTRYWIDE - RMBS
Between 2005 and 2007, Countrywide Financial
Corporation (“CFC”) was the parent corporation of
Countrywide Home Loans (“CHL”), Countrywide
Bank, FSB (“CB”), and Countrywide Securities Corpo­
ration (“CSC”). CHL originated and acquired residen­
tial mortgage loans. CB was a federally chartered
savings bank, the deposits of which were federally in­
sured. CSC was a registered broker-dealer that was
engaged in underwriting RMBS, which were often
backed by “pools” of loans originated by CHL. CFC,
CHL, CB, and CSC are referred to herein collectively
as “Countrywide.”
As discussed below, from 2005 to 2007, Country­
wide originated an increasing number of loans as ex­
ceptions to its Loan Program Guides. At the same time,
employees of Countrywide received information indi­
cating that there was an increased risk of poor perfor­
mance for certain mortgage programs and products

App. 33
that were being included in RMBS. Despite having ac­
cess to this information, Countrywide’s RMBS offering
documents generally did not disclose the extent to
which underlying loans were originated as exceptions
to its Loan Program Guides. Nor did Countrywide dis­
close in its RMBS offering documents the results of
certain reviews and internal reports related to loan
performance.
I.

Countrywide Business Model

Between 2005 and 2007, Countrywide was a diver­
sified financial services company engaged in mortgage
lending, banking, mortgage loan servicing, mortgage
warehouse lending, securities, and insurance. At this
time, Countrywide was among the largest originators
of residential mortgage loans in the United States.
Countrywide’s SEC filings show that it originated $229
billion in residential mortgage loans in 2005, $243 bil­
lion in 2006, and $205 billion in 2007.
Countrywide’s business model was to serve as an
intermediary between borrowers seeking residential
mortgages and investors seeking to purchase loans in
the secondary market. As disclosed in Countrywide’s
Form 10-K for 2005, most of the mortgage loans Coun­
trywide produced were sold into the secondary mort­
gage market, primarily in the form of RMBS. From
2005 to 2007, Countrywide sponsored and sold approx­
imately $332 billion of prime, Alt-A, second lien, home
equity line of credit, and subprime RMBS backed by
loans originated by, among others, CHL.

App. 34
Countrywide employed, among others, a corporate
strategy sometimes referred to as the “Supermarket
Strategy.” The Supermarket Strategy was developed to
create a one-stop shopping experience for borrowers.
In addition to offering its own products, Countrywide
strove to offer to borrowers every kind of mortgage
product that was available from legitimate competing
lenders. A component of the Supermarket Strategy,
which has sometimes been referred to as the “matching
strategy,” was a process by which Countrywide would
learn about and evaluate loan product offerings from
its competitors and expand its product offering to
match or exceed its competitors’ product offerings.
II.

Countrywide Loan Origination Process

CHL originated and acquired residential mort­
gage loans through a variety of channels, including its
own retail branches, mortgage brokers, and a network
of third-party correspondent lenders. Countrywide’s
retail branches were referred to as the Consumer Mar­
kets Division (“CMD”) and the Full Spectrum Lending
Division (“FSL”). Countrywide provided its CMD and
FSL branch underwriters with sets of lending guide­
lines, including Loan Program Guides, that listed bor­
rower and loan characteristics, including credit scores
and debt-to-income (“DTI”) and LTV ratios, that
branch underwriters were to consider when underwrit­
ing a potential loan. Branch underwriters had author­
ity to approve loans that fit within the parameters
outlined in the Loan Program Guides.

App. 35
When branch underwriters received loan applica­
tions that did not meet the program parameters in the
Loan Program Guides (e.g., credit score, LTV, loan
amount), the branch underwriters were authorized to
refer the applications to more experienced underwrit­
ers at the relevant divisional “Structured Loan Desk”
(“SLD”) for consideration of an “exception.” Underwrit­
ers at the SLD were authorized to approve requests to
make an “exception” to the Loan Program Guides if the
proposed loan and borrower complied with the charac­
teristics described in another set of guidelines, referred
to as so-called “Shadow Guidelines,” and the loan con­
tained compensating factors supporting the exception
request. The Shadow Guidelines generally permitted
loans to be made to borrowers with lower credit scores
and allowed for higher LTV ratios than the Loan Pro­
gram Guides. If the SLD underwriter did not believe
that an exception was appropriate as presented, the
SLD underwriter either could deny the exception re­
quest or could propose a counter-offer to the branch
underwriter. A counter-offer was a rejection of the ex­
ception request accompanied by a proposal that the
loan could be originated under a different set of terms
from those originally proposed by the branch under­
writer. For example, a counter-offer might propose a
different loan product or program or request that the
borrower increase the size of a down payment. Coun­
trywide’s policies indicated that after an exception ap­
proval or counter-offer was delivered to the branch
underwriter, the branch underwriter would then be
responsible for deciding whether to approve the loan.

App. 36
If a loan application did not meet the credit stan­
dards of the Shadow Guidelines, Structured Loan Desk
underwriters were authorized to submit a request to
Countrywide’s Secondary Marketing Structured Loan
Desk (“SMSLD”), which would then determine whether
the requested loan, if originated, could be priced and
sold in the secondary market. If a loan could be priced
and sold, SMSLD would provide a price for the loan
and ultimately it would be returned to the branch un­
derwriter.
III. RMBS Securitization Process
Countrywide sold the majority of the loans that it
originated. Many such loans were sold in the form of
RMBS underwritten by CSC. The CHL loans that CSC
underwrote in these securitizations were sourced in a
variety of ways, including through third-party corre­
spondent lenders. Countrywide structured and securit­
ized these CHL or third-party mortgage loans under
its own shelf registrations, such as Countrywide Alter­
native Loan Trust.
Due Diligence
When Countrywide securitized loans into RMBS,
it would typically engage a third-party due diligence
provider to perform due diligence on a sample of the
loans. During this process, third-party due diligence
providers generally reviewed a sample of the loans to be
securitized against underwriting guidelines provided
by Countrywide. In certain instances, Countrywide

App. 37
provided the due diligence providers with what were
known as “Seller Loan Program Guides,” which were
guidelines based on the characteristics of loans that
Countrywide had been able to make and sell in the
past. Seller Loan Program Guides reflected the credit
attributes of the loans that Countrywide had previ­
ously made and sold, and as a result they frequently
listed lower credit scores or higher DTI and LTV ratios
than the applicable Loan Program Guides or the appli­
cable Shadow Guidelines. For example, certain of the
Seller Loan Program Guides stated that they allowed
DTIs of up to 55% for certain loans. The due diligence
providers would then report the results of their review
of the loans that were contained in the selected sam­
ples, including whether they complied with the under­
writing guidelines provided by Countrywide and/or
whether exceptions to those guidelines were supported
by compensating factors.
Offering Document Representations and Dis­
closures
Countrywide prepared and filed with the SEC
certain documents in connection with offering RMBS.
Those documents included Prospectuses and Prospec­
tus Supplements (together, “Offering Documents”), as
well as Pooling and Servicing Agreements that memo­
rialized agreements among Countrywide entities that
offered or serviced the RMBS and the trustee for the
RMBS once they were issued. Portions of the Pooling
and Servicing Agreements were described and/or in­
corporated by reference in the Offering Documents.

App. 38
In certain of the Offering Documents that were
provided to investors in RMBS, Countrywide repre­
sented that it maintained an underwriting system that
was intended to evaluate residential borrowers’ credit
standing and repayment ability. Although the Offering
Documents were not uniform, Countrywide typically
represented in them that it originated loans substan­
tially in accordance with its credit, appraisal and un­
derwriting standards. For example, Countrywide
typically represented that it applied its underwriting
standards “to evaluate the borrower’s credit standing
and repayment ability” and that “a determination gen­
erally is made as to whether the prospective borrower
has sufficient monthly income available to meet
monthly housing expenses and other financial obliga­
tions and to meet the borrower’s monthly obligations
on the proposed mortgage loan.” For certain RMBS,
Countrywide also generally stated that “exceptions” to
CHL’s “underwriting guidelines may be made if com­
pensating factors are demonstrated by a prospective
borrower.”
In certain of the Offering Documents, Country­
wide stated that it originated loans under “Standard
Underwriting Guidelines” and “Expanded Underwrit­
ing Guidelines.” Countrywide stated that certain
Standard Underwriting Guidelines generally permit­
ted DTI ratios based on monthly housing expenses up
to 33% and, when based on total debt, up to 38%.
Certain Offering Documents disclosed that under
Countrywide’s Standard Underwriting Guidelines,
loans could be originated pursuant to the “Full,” “Alt,”

App. 39
“Reduced,” “CLUES Plus,” and “Streamlined” docu­
mentation programs, and that under certain of these
programs, “some underwriting documentation con­
cerning income, employment and asset verification is
waived,” that “information relating to a prospective
borrower’s income and employment is not verified,”
and that therefore DTI for those loans was calculated
“based on the information provided by the borrower in
the mortgage loan application.”
Certain Offering Documents also disclosed that
under Countrywide’s Expanded Underwriting Guide­
lines, loans could be originated under additional docu­
mentation programs, namely “Stated Income/Stated
Assets,” “No Income/No Assets,” and “No Ratio.” Under
the “Stated Income/Stated Asset” program, borrowers
stated their incomes on a loan application without
providing supporting documentation that could then
be verified. The Offering Documents disclosed that in
connection with the Stated Income/Stated Assets pro­
gram, the loan application was reviewed to determine
whether the income as stated by the borrower was
reasonable for the borrower’s stated employment. The
description of the Expanded Underwriting Guidelines
also stated that they generally permitted DTI ratios up
to 36% on the basis of housing debt and up to 40% on
the basis of total debt.
Countrywide entities made representations to se­
curitization trustees in Pooling and Servicing Agree­
ments. For example, CHL typically represented that
each CHL mortgage loan supporting the subject
RMBS was underwritten in all material respects in

App. 40
accordance with CHL’s underwriting guidelines. In cer­
tain Pooling and Servicing Agreements, CHL also rep­
resented that the mortgage loan pools backing the
subject RMBS were “selected from among the . . . port­
folios of the Sellers at the Closing Date as to which the
representations and warranties [set forth in the Pool­
ing & Servicing Agreement] can be made” and were not
“selected in a manner intended to adversely affect the
interests of the CertificateholdersCHL also repre­
sented in certain Pooling and Servicing Agreements
that, to the best of its knowledge, “there is no material
event which, with the passage of time or with notice
and the expiration of any grace or cure period, would
constitute a default, breach, violation or event of ac­
celeration” as to any mortgage loan serving as collat­
eral for the RMBS.
IV. Countrywide Expanded Its Loan Offerings
Based on Salability
In the early to mid-2000s, mortgage originators
across the mortgage lending industry began to offer
more types of mortgage products. In furtherance of its
goal to obtain a 30% market share and its “Supermar­
ket Strategy,” Countrywide began to offer products
that featured more permissive lending criteria. Exam­
ples of these more permissive lending criteria included
loans with higher combined-loan-to-value ratios or
with lower credit scores. Countrywide also began to
offer products that required less documentation from
borrowers or offered flexible payment options. Examples
of these mortgage products included “Stated Income”

App. 41
loans and Pay-Option Adjustable Rate Mortgages
(“ARMs”). Stated Income loans did not require borrow­
ers to substantiate their claimed incomes with tax
forms or other documentary proof. Pay-Option ARMs
featured variable interest rates and flexible repayment
options, including the ability to pay only the interest
due for a certain period of time.
In a memo sent in October 2004, CFC’s then Chief
Credit Officer wrote: “my impression since arriving
here is that the Company’s standard for products and
Guidelines has been: ‘If we can price it, then we will
offer it.’ ” In a May 13,2007 internal memorandum, the
same executive wrote:
A core principal [sic] underlying product guide­
lines is salability. The only exception to this prin­
ciple is specific ‘Bank only’ programs where loans
are originated or purchased for the Bank portfo­
lio.
Similarly, in an email dated June 7, 2007, CFC’s Chief
Investment Officer wrote to CFC’s President, “[W]hen
credit was easily salable, SLD was a way to take ad­
vantage of the ‘salability’ and do loans outside guide­
lines and not let our views of risk get in the way.”
Increase in Exception Loans
Countrywide originated an increasing number of
loans as exceptions to its Loan Program Guides. A
June 28, 2005, a Countrywide Financial Corporate
Credit Risk Committee presentation noted that

App. 42
approximately 15% of nonconforming loans1 that Coun­
trywide was originating through CMD were exception
loans.
On July 28,2005, a Countrywide executive sent an
email informing the SLD that it could begin to expand
the programs for which it could approve “exception”
loans to programs other than the 30 year fixed and 5/1
ARM loan products. He wrote:
[T]o the widest extent possible, we are going
to start allowing exceptions on all requests,
regardless of program, for all loans less than
$3 million, effective immediately.
* * * *

The pricing methodology we will use will be
similar to that which we use for 30-year fixed
rates and 5-1 Hybrids. We will assume secu­
ritization in all cases.
By June 7,2006, less than a year later, an internal
Countrywide email indicated that during May 2006,
for prime loans, exceptions constituted by dollar
amount approximately 30% of fundings for certain
fixed loans, 40% for Pay-Option ARMs, and 50% for
expanded criteria hybrid loans.
Extreme Alt-A Program
In late 2006, Countrywide, after analyzing the
mortgage products offered by certain of its competitors,
1 Loans that did not meet requirements for sale to Fannie
Mae or Freddie Mac.

App. 43
implemented an expansion of its underwriting guide­
lines used by SLD underwriters, internally referred to
as “Extreme Alt-A.” The Extreme Alt-A initiative re­
sulted in underwriting guidelines that, among other
things, permitted higher LTV ratios and allowed for
lower FICO scores from prospective borrowers. Ex­
treme Alt-A loans were originated with the intent
that they would be sold and that no credit risk would
be retained by Countrywide. Some loans with Extreme
Alt-A characteristics were sold in RMBS securitiza­
tions.
In connection with approving the Extreme Alt-A
guideline expansion, Countrywide conducted various
stress tests to model the loans’ expected performance.
Under certain adverse economic assumptions, Coun­
trywide’s models predicted that certain bands of Ex­
treme Alt-A loans could perform more like subprime
loans than like Alt-A loans.
In or around late March 2006, the Extreme Alt-A
program was presented to Countrywide’s Responsible
Conduct Committee (“RCC”) for consideration. The
presentation included Model Foreclosure Frequency
Estimates which projected that, under stressed eco­
nomic conditions, certain bands of the loans originated
under Extreme Alt-A guidelines could exceed a 21.62%
foreclosure frequency. The model described in the
presentation predicted that a number of categories of
loans within the Extreme Alt-A program could experi­
ence default percentages into the high 30’s or low 40’s,
and even a few in the 50’s. The presentation indicated
that “poor performance should be expected.”

App. 44
On April 5, 2006, a Countrywide executive sent an
email regarding the Extreme Alt-A program that read,
“[blecause this is a ‘hazardous product’ (direct quote
from [another Countrywide executive]),. . . [that Coun­
trywide executive] wants to see a detailed implemen­
tation plan which addresses the process for originating
and selling these loans such that we are not left with
credit risk.” Countrywide began offering the Extreme
Alt-A program in 2006 and began originating and
selling loans under its expanded underwriting guide­
lines. As with most exception loans, the Extreme Alt-A
guidelines called for Extreme Alt-A loans to be pro­
cessed at the SLD level, but the Extreme Alt-A guide­
lines did not require SLD underwriters to identify
compensating factors in connection with underwriting
the loans.
V.

Countrywide Received Information Con­
cerning Risks and Quality of Its Mortgage
Loans

During the period from August 2005 to 2007,
Countrywide received information regarding the per­
formance and characteristics of loans that it originated
under various products and programs and securitized
into RMBS. That information suggested that certain
products had the potential to perform poorly, particu­
larly in a challenging economic environment.

App. 45
Exception Loan Performance
Using its SLD and SMSLD processes, Country­
wide originated a substantial number of loans as ex­
ceptions to its Loan Program Guides. Internal
reporting indicated that certain categories of exception
loans performed poorly compared to loans originated
within the parameters set out in Loan Program
Guides. For example, a June 28,2005 CFC Credit Risk
Committee report indicated that certain exception
loans greater than $650,000 were “performing 2.8x
worse overall” than non-exception loans.
Pay-Option ARM Loans
Countrywide began issuing Pay-Option ARM
loans around 2000, and by 2004 they were a large part
of Countrywide’s loan originations. In some instances,
Pay-Option ARM borrowers were able to make pay­
ments that were less than the interest that accrued on
the principal balance each month. The difference be­
tween the amount of interest that accrued on the loan
and that lower payment is called “negative amortiza­
tion” and was added to the principal balance of the
loan. If the loan’s principal balance reached a certain
amount, frequently 110% or 115% of the original loan
amount, the loan payment “reset” to the amount nec­
essary to amortize the principal balance. This “reset”
could result in substantially higher payments for bor­
rowers, resulting in a form of what became known in
the industry as “payment shock.”

App. 46
Starting in mid-2005, Countrywide received infor­
mation indicating, among other things, that a majority
of Pay-Option ARM borrowers were opting to make
the minimum payment on their loans. In response to
certain information, CFC and CB decided to limit the
types of Pay-Option ARM loans that CB held for in­
vestment. On August 1,2005, CFC’s Chairman sent an
email to CHL’s President and head of loan production
and CB’s President stating:
I am becoming increasingly concerned about
the environment surrounding the borrowers
who are utilizing the pay option loan and the
price level of real estate in general but partic­
ularly relative to condos and specifically con­
dos being purchased by speculators (non
owner occupants). I have been in contact with
developers who have told me that they are an­
ticipating a collapse in the condo market very
shortly simply related to the fact that in Dade
County alone 70% of the condos being sold are
being purchased by speculators. The situation
being reported in Broward County, Las Vegas
as well as other so called “hot” areas of the
Country.
We must therefore re-think what assets [we]
should be putting in the bank. For example
you should never put a non-owner occupied
pay option Arm on the balance sheet. I know
you have already done this but it is unac­
ceptable. Secondly only 660 fico’s and above,
owner occupied should be accepted and only
on a limited basis. The focus should be on 700
and above (owner occupied) for this product.

App. 47
The simple reason is that when the loan re­
sets in five years there will be enormous
payment shock and the borrower is not suffi­
ciently sophisticated to truly understand the
consequences then the bank will be dealing
with foreclosure in potentially a deflated real
estate market. This would be both a financial
and reputational catastrophe.
On August 2, 2005, CHL’s president responded to
this email, writing that this approach had “securitiza­
tion implications”:
We need to analyze what remains if the bank
is only cherry picking and what remains to be
securitized/sold is overly concentrated with
higher risk loans. The concern and issue gets
magnified as we put a bigger percentage of
our pay option production into the Bank be­
cause the remaining production then increas­
ingly looks like an adversely selected pool.
On August 2, 2005, CFC’s Chairman responded to
this email:
I absolutely understand your position how­
ever there is a price no matter what we do.
The difference being that by placing less at­
tractive loans in the secondary market we will
know exactly the economic price we will pay
when the sales settle.
In accordance with the direction of CFC’s Chairman,
CB later limited the Pay-Option ARM loans that it held
for its own investment to loans with relatively higher
credit characteristics.

App. 48
Beginning in October 2005, Countrywide tracked
its Pay-Option ARM portfolio through monthly “Flash
Reports.” Countrywide’s analysis showed that the per­
centage of borrowers who chose to make the minimum
mortgage payment each month was trending higher
than predicted and, thus, certain loans were at risk of
“resetting” earlier than anticipated. This “resetting,”
which was an inherent risk of the Pay-Option ARM
product, could result in higher payments and, thus,
could cause “payment shock” for borrowers.
On February 3,2006, an article in Inside Mortgage
Finance Publications reported on a study that Country­
wide presented at the American Securitization Forum
Conference. The article reported that a Countrywide
executive had stated that “Pay Option Arms were
found to be the riskiest product on the market.”
On April 3, 2006, CFC’s Chairman sent to CHL’s
President and head of loan origination an email ob­
serving that there was:
important data that could portend serious
problems with [Pay-Option ARMs]. Since over
70% have opted to make the lower payments
it appears that it is just a matter of time that
we will be faced with a substantial amount of
resets and therefore much higher delinquen­
cies. We must limit [CB’s retained investment
in] this product to high ficos otherwise we
could face both financial and regulatory con­
sequences.
On May 18, 2006, CFC’s Chairman sent to CFC’s
CFO, CHL’s President, and others an email in which

App. 49
he warned: “As for pay options the Bank faces potential
unexpected losses because higher rates will cause
these loans to reset much earlier than anticipated and
as [a] result caus[e] mortgagors to default due to the
substantial increase in their payments.”
On June 7, 2006, a Countrywide executive sent
an email, observing that “exceptions” constituted 40%
of prime Pay-Option ARM loans by dollar amount.
On September 13,2006, CFC’s Chairman spoke at
a Countrywide Fixed Income Investor Forum and dis­
closed that, with respect to Pay-Option ARMs, “in the
first year 78% of the borrowers employ the lower pay­
ment.”
On September 26, 2006, CFC’s Chairman sent an
internal email in which he described Pay-Option ARM
loans as “the lightening [sic] rod of ‘exotic loans’ ” and
then described his concern with how the product would
perform in stressed market conditions:
The bottom line is that we are flying blind on
how these loans will perform in a stressed
environment of higher unemployment, re­
duced value and slowing home sales ... It [sic]
therefore I [sic] believe the timing is right for
us to sell all newly originated pay options and
begin rolling off the bank balance sheet, in an
orderly manner, pay options currently on their
port [folio].
Throughout 2006 and 2007, Countrywide contin­
ued to originate Pay-Option ARMs, including as excep­
tions to its Loan Program Guides, and to securitize

App. 50
these Pay-Option ARMs into RMBS. As disclosed in
Offering Documents, in certain RMBS backed by PayOption ARMs, as many as 90% of the loans that backed
the certificates were originated under reduced docu­
mentation programs.
Stated Income Loans
Countrywide also received information indicating
that some borrowers who applied for loans in which
they stated their incomes without providing verifica­
tion may have been overstating their incomes on their
loan applications. In a May 26, 2006, CB Credit Risk
Committee Report, CB presented the results of a re­
view of the tax returns of a sample of borrowers who
had filled out IRS Form 4506-Ts in connection with
their mortgage applications. A form 4506-T allows a
mortgage lender to request a borrower’s previous
year’s income tax return from the IRS. The audit de­
scribed in the CB Credit Risk Committee Report com­
pared the income a borrower provided in connection
with a mortgage application to the income reported on
the borrower’s income tax return in the prior tax year.
The presentation, assuming that borrowers correctly
reported (and did not understate) their income on their
tax returns, suggested:
that approximately 40% of the Bank’s reduced
documentation loans in the portfolio could
potentially have income overstated by more
than 10% and a significant percent of those
loans would have income overstated by 50%
or more.

App. 51
The study further suggested that, among the
group of borrowers who may have overstated their in­
come by more than 10%, 68% had a variance of greater
than 50%, 25% had a variance between 25% and 50%,
and 7% had a variance between 10% and 25%. For
Pay-Option ARM loans, the overwhelming majority of
which were stated income loans, the study indicated
that 72% of the Pay-Option ARM loans that showed
greater than 10% variance showed greater than 50%
variance.
In a June 2,2006, email drafted in response to this
presentation, CFC’s Chief Risk Officer wrote:
These results are basically identical to what
I’ve seen other times (both here and other
places) this type of analysis has been done.
You will observe similar results for other
types of consumer loans (e.g., credit cards, in­
stallment loans) where income is not docu­
mented. While I’m no fan of reduced doc, we
should also keep in mind:
1) Any income growth since the last tax re­
turn won’t be reflected in this type of analy­
sis. . . .
2) Borrowers are not underwriters. Some of
what we would not count as income (e.g., sup­
port from relatives) would be considered by
most borrowers. Most borrowers are not going
to knowingly take on an obligation they don’t
believe they can afford.
3) Many (most?) borrowers seek to report as
little income as possible on their tax return.

App. 52
4) Unlike many loan programs, the reduced
doc is not differentially priced for most PayOption loans. So we may not have as much ad­
verse selection here as other programs.
We need to be careful painting all of this as a
“misrep.” Although that is obviously the case
in some (perhaps many) instances, it won’t be
the case in all cases.
If a borrower overstated his or her income, it
would affect the accuracy of DTI calculations, and also
could affect an underwriter’s ability to evaluate a bor­
rower’s repayment ability.
VI. Disclosures in Offering Documents Did Not
Reflect Certain Information That Country­
wide Received
Although Countrywide originated an increasing
number of mortgage loans as exceptions to its Loan
Program Guides from 2005 to 2007, Countrywide gen­
erally did not disclose in its RMBS Offering Docu­
ments the scope of the exceptions to its Loan program
Guides. Throughout this time period, Countrywide re­
ceived information on risks associated with certain
mortgage products and programs. Countrywide did not
disclose in its RMBS Offering Documents the results
of certain reviews and internal reports that analyzed
this information.
Countrywide’s Offering Documents did not in­
clude a description of its Supermarket Strategy,
whereby Countrywide sought to achieve more market

App. 53
share and growth by creating a one-stop shopping ex­
perience for borrowers by offering a complete suite of
mortgage products that were available in the industry
from legitimate competing lenders.
Countrywide did not disclose in its Offering Docu­
ments that according to the June 28, 2005 CFC Credit
Risk Committee report, non-conforming loans greater
than $650,000 that were originated since 2004 via the
retail branch network or mortgage brokers through
the exception process were “performing 2.8x worse”
than loans originated without exceptions. Nor did
Countrywide’s Offering Documents identify the per­
centage of loans backing an offering that were origi­
nated as exceptions to Countrywide’s Loan Program
Guides.
The Offering Documents also did not disclose
certain information concerning specific mortgage prod­
ucts that served as collateral for certain of Country­
wide’s RMBS offerings. For example, the Offering
Documents did not disclose historical information on
the percentage of Pay-Option ARM borrowers who
chose to make the minimum payments. Although
Countrywide disclosed in certain of its SEC filings (i)
the attributes of Pay-Option ARMs that were held
by CB and (ii) the increasing volume and dollar
amount of loans that were experiencing negative amor­
tization, the Offering Documents did not disclose
that certain Pay-Option ARM loans included as collat­
eral were loans that CB had elected not to hold for
its own investment portfolio because they had risk

App. 54
characteristics that CFC management had identified
as inappropriate for CB.
With respect to stated income loans, Countrywide
did not describe in its Offering Documents the results
of the tax return study described in the May 26, 2006
CB Credit Risk Committee Report. Nor did the Offer­
ing Documents describe the impact that an overstate­
ment of income could have had on DTI calculations.
Although the Offering Documents included de­
tailed loan-level statistics about the pool of loans
serving as collateral for the RMBS, the Offering Docu­
ments were not revised to describe the Extreme Alt-A
program. In particular, the Offering Documents did
not disclose that under the Phase 1 (roll-out) of the
Extreme Alt-A program Countrywide originated CMD
and Wholesale Lending Division loans whose charac­
teristics fell outside of the Loan Program Guides, and
that documents drafted in connection with implement­
ing the program indicated that in Phase 1 “loans
[would] be treated as exceptions and routed to SLD for
guideline and price determination” without requiring
compensating factors as a basis for approval. The Of­
fering Documents also did not disclose whether Ex­
treme Alt-A loans were included in the collateral for a
given RMBS. Nor did the Offering Documents describe
the default rates predicted by the model used to gener­
ate the March 2006 RCC presentation on Extreme
Alt-A performance.

App. 55
VII. Bank of America’s Acquisition of Country­
wide
On July 1,2008, after the events described herein,
Countrywide was acquired by Bank of America Corpo­
ration.
FHA UNDERWRITING
Bank of America is a mortgage lender that partic­
ipates in a federal program sponsored by the Depart­
ment of Housing and Urban Development (“HUD”)
called the “Direct Endorsement Program.” Subject to
the requirements of the program, Bank of America is
authorized to “originate” - La, make - and to under­
write mortgage loans to first-time and low-income
home buyers and to low-income home owners refinanc­
ing mortgages, that are insured by the Federal Hous­
ing Administration (“FHA”), an agency within HUD. In
exchange for having the authority to originate and un­
derwrite FHA-insured loans, Bank of America is obli­
gated to determine whether prospective borrowers
meet minimal credit-worthiness criteria and to certify
to HUD that borrowers who received loans met the cri­
teria. In the event that an FHA-insured loan origi­
nated by Bank of America goes into default, the FHA
guarantees payment of the outstanding portion of the
mortgage principal, accrued interest, and costs owed
by the borrower.
During the period May 1, 2009 through March 31,
2012, Bank of America underwrote and insured for
FHA insurance loans to borrowers who did not qualify

App. 56
for loans under the criteria set by HUD. In certain
cases, Bank of America, inter alia, did not properly ver­
ify borrowers’ income, did not adequately verify the
source of gift funds borrowers used to make the statu­
tory minimum down payment, and approved borrow­
ers that may have lacked the ability to make monthly
mortgage payments.
Many of Bank of America’s borrowers have de­
faulted on their mortgage loans and have either lost or
are in the process of losing their homes to foreclosure.
As a result of Bank of America’s conduct, HUD-FHA
insured loans that were not eligible for FHA mortgage
insurance and that HUD-FHA would not otherwise
have insured. HUD consequently incurred hundreds of
millions of dollars of losses when it paid insurance
claims on those Bank of America-endorsed loans.
I.

FHA MORTGAGE INSURANCE AND THE
DIRECT ENDORSEMENT PROGRAM

The National Housing Act of 1934 authorizes the
FHA to insure home mortgages for first-time and lowincome home buyers. 12 U.S.C. § 1709. The FHA only
insures mortgage loans issued by approved mortgage
lenders or “mortgagees” to qualified borrowers.
Under the Direct Endorsement Program, ap­
proved mortgage lenders (“Direct Endorsers”) deter­
mine whether loan applicants are eligible for FHA
mortgage insurance. See 24 C.F.R. §203.5(a). A Direct
Endorser must submit a mortgage insurance applica­
tion for each borrower to HUD, with documentation of

App. 57
the borrower’s income, assets and credit-worthiness,
and of the Direct Endorser’s review and analysis of the
loan.
HUD authorizes some Direct Endorsers to endorse
mortgage loans for FHA mortgage insurance on an
expedited basis, after the company’s own pre-endorse­
ment review of the file. This endorsement occurs
without a required pre-endorsement review of the
mortgage insurance application file by HUD. This is
known as the Lender Insurance Program. Under this
program, Direct Endorsers are still required to comply
with all HUD regulations concerning the origination of
FHA-insured mortgages. Additionally, there is no re­
duction in the documents required, and the mortgage
lender is required to retain all loan origination docu­
ments. Further, Direct Endorsers are required to sub­
mit the full mortgage loan file to HUD upon HUD’s
request. During the relevant time period, Bank of
America participated in the Lender Insurance pro­
gram.
Bank of America originated mortgages nationally
through its direct lending branch. Direct lending
branches of FHA-approved mortgage lenders contact
consumers and originate mortgages through the inter­
net, or through a call center.

App. 58
A. Underwriting and Eligibility Require­
ments for FHA Mortgage Insurance
In determining whether a loan applicant qualifies
for an FHA-insured mortgage loan, a Direct Endorser
must comply with HUD underwriting requirements
which establish the minimum standard of due dili­
gence in underwriting mortgage loans. 24 C.F.R.
§ 203.5(c). Among other things, a Direct Endorser is re­
quired by law to “exercise the same level of care which
it would exercise in obtaining and verifying infor­
mation for a loan in which the [Direct Endorser] would
be entirely dependent on the property as security to
protect its investment.” hi Put another way, a Direct
Endorser may not underwrite an FHA-insured mort­
gage loan less carefully than it would if the mortgage
loan was not insured by the FHA.
1. Income. Credit History and Ability to
Make Mortgage Payments
Specifically, HUD requires a Direct Endorser to be
responsible for evaluating a borrower’s credit charac­
teristics, including past credit history and demon­
strated willingness to pay debts. Additionally, a Direct
Endorser must assess the adequacy of a borrower’s in­
come, including the adequacy and stability of income
to meet periodic mortgage payments and any other
recurring debt payments and the adequacy of a bor­
rower’s available assets to cover the statutory mini­
mum down payment. 24 C.F.R. § 203.5(d).

App. 59
For each FHA-insured loan, a Direct Endorser
must establish that the borrower has the ability and
willingness to repay the loan. A Direct Endorser’s de­
termination must be predicated on sound underwrit­
ing principles consistent with HUD’s requirements
and must be supported by requisite documentation.
See HUD Handbook 4155.1, Mortgage Credit Analysis
for Mortgage Insurance, One to Four Family Proper­
ties, May 10, 2009 (“Credit Analysis Handbook”),. A
Direct Endorser must therefore pay specific attention
to a borrower’s rent or mortgage payment history, and
any collection actions, judgments, foreclosures or bank­
ruptcies. Id.
HUD requires a Direct Endorser to submit docu­
mentation that the borrower has the ability to respon­
sibly manage his or her financial affairs. See Credit
Analysis Handbook,. For example, if a borrower has
gone through a bankruptcy, the Direct Endorser must
document that the borrower’s current situation indi­
cates that the events that led to the bankruptcy are not
likely to recur.
HUD regulations further require that a Direct En­
dorser calculate a borrower’s verifiable income and de­
termine the likelihood that the income will continue
through at least the first three years of the mortgage.
See Credit Analysis Handbook. In particular, a Direct
Endorser must review:
a.

salaries, wages, and other regular pay­
ments such as social security or retire­
ment benefits;

App. 60
b.

alimony, child support or maintenance in­
come; and

c.

net rental income from property owned
by the borrower.

A Direct Endorser may include rental income from
properties owned by borrowers in its analysis, if the
lender can document that the rental income is stable
through a lease, an agreement to lease, or a rental over
the past twenty-four months free of unexplained
gaps.
A Direct Endorser must further verify and docu­
ment a borrower’s minimum required cash investment
in the property by obtaining a Verification of Deposit
form from the borrower’s bank to verify its current
bank deposits, along with the most recent bank
statement. See Credit Analysis Handbook,. A Direct
Endorser must also list a borrower’s recurring obliga­
tions, including installment loans, charge accounts,
and real estate loans, and consider their impact on the
borrower’s ability to pay the mortgage. Id.
2. Debt. Qualifying Ratios and Overall
Merit of Loan Application
Additionally, a Direct Endorser must compute two
“Qualifying Ratios” to determine whether the borrower
can reasonably be expected to meet the expenses in­
volved in home ownership, and otherwise provide for
the borrower’s family:

App. 61
a.

Mortgage Payment to Effective Income:
the mortgage payment, including pay­
ments into an escrow account for taxes,
insurance and any other assessments,
should not exceed 31% of a borrower’s ef­
fective income. See Credit Analysis Hand­
book; Mortgagee-Letter 2005-16, April 13,
2005.

b.

Total Fixed Payment to Effective Income:
the borrower’s mortgage payments and
all other recurring payment obligations
should not exceed 43% of effective income.
See Credit Analysis Handbook; Mortga­
gee-Letter 2005-16, April 13, 2005.

Where a borrower exceeds either Qualifying Ratio,
a Direct Endorser must determine whether there are
“Compensating Factors” that justify the making of the
loan. See Credit Analysis Handbook. Compensating
Factors include whether:
a.

Housing Expense Payments: The bor­
rower has successfully demonstrated the
ability to pay housing expenses greater
than or equal to the proposed monthly
housing expenses for the new mortgage
over the past 12-24 months;

b.

Down Payment: The borrower makes a
large down payment of 10 percent or
higher toward the purchase of the prop­
erty;

c.

Accumulated Savings: The borrower has
demonstrated:

App. 62
• an ability to accumulate savings, and
• a conservative attitude toward using
credit;
d.

Previous Credit History: A borrower’s
previous credit history shows that he/she
has the ability to devote a greater portion
of income to housing expenses;

e.

Compensation or Income Not Reflected
in Effective Income: The borrower re­
ceives documented compensation or in­
come that is not reflected in effective
income, but directly affects his/her ability
to pay the mortgage. This type of income
includes food stamps, and similar public
benefits;

f.

Minimal Housing Expense Increase:
There is only a minimal increase in the
borrower’s housing expense;

g.

Substantial Cash Reserves: The borrower
has substantial documented cash re­
serves (at least three month’s worth) af­
ter closing. The lender must judge if the
substantial cash reserve asset is liquid or
readily convertible to cash, and can be
done so absent retirement or job termina­
tion, when determining if the asset can be
included as cash reserves, or cash to close.
Funds and/or “assets” that are not to be
considered as cash reserves include eq­
uity in other properties, and proceeds
from a cash-out refinance.

App. 63
Lenders may use a portion of a borrower’s
retirement account, subject to the condi­
tions stated below. To account for with­
drawal penalties and taxes, only 60% of
the vested amount of the account may be
used. The lender must document the ex­
istence of the account with the most re­
cent depository or brokerage account
statement. In addition, evidence must be
provided that the retirement account al­
lows for withdrawals for conditions other
than in connection with the borrower’s
employment termination, retirement, or
death. If withdrawals can only be made
under these circumstances, the retire­
ment account may not be included as cash
reserves. If any of these funds are also to
be used for loan settlement, that amount
must be subtracted from the amount in­
cluded as cash reserves. Similarly, any
gift funds that remain in the borrower’s
account following loan closing, subject to
proper documentation, may be considered
as cash;
h.

Substantial Non-Taxable Income: The
borrower has substantial nontaxable in­
come;

i.

Potential for Increased Earnings: The
borrower has a potential for increased
earnings, as indicated by job training or
education in his/her profession; and

j.

Primary Wage-Earner Relocation: The
home is being purchased because the

App. 64
primary wage-earner is relocating, and
the secondary wage-earner
• has an established employment history
• is expected to return to work, and
• has reasonable prospects for securing
employment in a similar occupation in
the new area
HUD further requires that a Direct Endorser
judge the overall merit of a borrower’s loan application.
Simply establishing that a loan transaction meets min­
imal standards does not necessarily constitute prudent
underwriting. See Credit Analysis Handbook. A Direct
Endorser must therefore analyze the probability that
a borrower will repay the mortgage obligation. Id..
A Direct Endorser must document each loan sub­
mitted for mortgage insurance. See Credit Analysis
Handbook. A Direct Endorser must ask questions that
will elicit a complete picture of the borrower’s financial
situation.
When a borrower’s credit history reveals delin­
quent accounts, the Direct Endorser must document
its analysis of whether the late payments were based
on a disregard for, or inability to pay or manage debts.
See Credit Analysis Handbook

App. 65
3. Supporting Documents Must Come
From Disinterested Parties
A Direct Endorser may receive Verification of
Employment forms from a borrower’s employer by fax,
if the borrower’s employer is clearly identified as the
source of the fax. The lender is accountable for ascer­
taining the authenticity of employment verification
documents, by examining information in its header
and footer. See Credit Analysis Handbook.
Mortgage lenders may not accept or use documents
relating to the employment, income or credit of bor­
rowers that are handled or transmitted from or
through interested third parties, including real estate
agents, or by using their equipment. See Credit Analy­
sis Handbook
B. Specific Due Diligence Required of Di­
rect Endorsement Lenders
HUD relies on Direct Endorsement Lenders to
conduct due diligence on Direct Endorsement loans.
The purposes of due diligence include (a) determining
a borrower’s ability and willingness to repay a mort­
gage debt, thus limiting the probability of default and
collection difficulties, see 24 C.F.R. § 203.5(d), and (b)
examining a property offered as security for the loan
to determine if it provides sufficient collateral, see 24
C.F.R. § 203.5(e)(3). Due diligence thus requires an
evaluation of, among other things, a borrower’s credit
history, capacity to pay, cash to close, and collateral.

App. 66
HUD has set specific rules for due diligence pred­
icated on sound underwriting principles. In particular,
HUD requires Direct Endorsement Lenders to be fa­
miliar with, and to comply with, governing HUD Hand­
books and Mortgagee Letters, which provide detailed
processing instructions to Direct Endorsement Lend­
ers. These materials specify the minimum due dili­
gence with which Direct Endorsement Lenders must
comply.
With respect to ensuring that borrowers have suf­
ficient credit, a Direct Endorsement Lender must com­
ply with governing HUD Handbooks, such as HUD
4155.1, Mortgage Credit Analysis for Mortgage Insur­
ance on One-to-Four Family Properties, to evaluate a
borrower’s credit. The rules set forth in HUD 4155.1
exist to ensure that a Direct Endorsement Letter suf­
ficiently evaluates whether a borrower has the ability
and willingness to repay the mortgage debt. HUD has
informed Direct Endorsement Lenders that past credit
performance serves as an essential guide in determin­
ing a borrower’s attitude toward credit obligations and
in predicting a borrower’s future actions.
To properly evaluate a borrower’s credit history,
a Direct Endorsement Lender must, at a minimum,
obtain and review credit histories; analyze debt obli­
gations; reject documentation transmitted by un­
known or interested parties; inspect documents for
proof of authenticity; obtain adequate explanations
for collections, judgments, recent debts and recent
credit inquiries; establish income stability and make
income projections; obtain explanations for any gaps in

App. 67
employment; document any gift funds; calculate debt
and income ratios and compare those ratios to the fixed
ratios set by HUD rules; and consider and document
any compensating factors permitting deviations from
those fixed ratios.
With respect to appraising the mortgaged prop­
erty (i.e.. collateral for the loan), a Direct Endorsement
Lender must ensure that an appraisal and its related
documentation satisfy the requirements in governing
HUD Handbooks, such as HUD 4150.2, Valuation
Analysis for Home Mortgage Insurance. The rules set
forth in HUD 4150.2 exist to ensure that a Direct En­
dorsement Lender obtains an accurate appraisal that
properly determines the value of the property for
HUD’s mortgage insurance purposes.
C. Direct Endorser Certifications To HUD
1. Annual Certifications
As a condition for maintaining its participation in
the Direct Endorsement Program, a Direct Endorser,
by its President or Vice-President, must certify to HUD
annually that the Direct Endorser conforms to all
HUD-FHA regulations necessary to maintain its
HUD-FHA approval. See Title II Yearly Verification
Report, Home Office. The officer must further certify
that the Direct Endorser is responsible for all its em­
ployees’ actions. Id.
The Direct Endorsement Lender must make the
following annual certification, in sum and substance:

App. 68
I know or am in the position to know, whether
the operations of the above named mortgage
conform to HUD-FHA regulations, hand­
books, and policies. I certify that to the best of
my knowledge, the above named mortgagee
conforms to all HUD-FHA approval, and that
the above named mortgagee is fully responsi­
ble for all actions of its employees including
those of its HUD-FHA approved branch of­
fices.
The annual certification requires compliance with
the basic eligibility requirements for Direct Endorse­
ment Lenders, which includes compliance with HUD
rules concerning lender’s quality control.
2. Loan Application Certifications
For each mortgage loan insured by FHA under the
Direct Endorsement Program, a Direct Endorser and
its Underwriter must make a number of certifications
required by HUD. See Direct Endorsement Approval
for a HUD/FHA Insured Mortgage form; HUD Hand­
book 4000.4 Rev-1, Single Family Direct Endorsement
Program, 9/2/88 (“Direct Endorsement Handbook”).
Specifically, a Direct Endorser and/or the Direct
Endorsement Underwriter must make a series of cer­
tifications in the HUD 1003 Addendum, also known as
the HUD/VA Addendum to Uniform Residential Loan
Application and the Direct Endorsement Approval for
a HUD/FHA Insured Mortgage, including:

App. 69
a.

The loan terms furnished in the Uniform Res­
idential Loan Application and the Addendum
are true, accurate and complete.

b.

The information contained in the Uniform
Residential Loan Application and the Adden­
dum was obtained directly from the borrower
by an employee of the undersigned lender or
its duly authorized agent and is true to the
best of the lender’s knowledge and belief.

c.

The verification of employment was requested
and received by the lender or its duly author­
ized agent without passing through the hands
of any third persons and are true to the best
of the lender’s knowledge and belief.

d.

The verification of deposit was requested and
received by the lender or its duly authorized
agent without passing through the hands of
any third persons and are true to the best of
the lender’s knowledge and belief.

e.

The proposed loan to the borrower meets the
income and credit requirements of the govern­
ing law in the lender’s judgment.

f.

That the statements made in its application
for insurance and the Lender’s Certificate as
part of the Direct Endorsement Approval for
a HUD/FHA Insured Mortgage are true and
correct.

g.

That complete disbursement of the loan has
been made to the borrower, or to his/her cred­
itors for his/her account and with his/her con­
sent.

App. 70
h.

No charge has been made to or paid by the
borrower except as permitted under HUD reg­
ulations.

1.

The Lender has not paid any kickbacks, fee or
consideration of any type, directly or indi­
rectly, to any party in connection with the
transaction except as permitted under HUD
regulations and administrative instructions.

J-

The Lender’s officer has personally reviewed
the mortgage loan documents, closing state­
ments, application for insurance endorse­
ment, and all accompanying documents.

k.

All certifications required for the mortgage by
the Direct Endorsement Handbook.

D. Submission To HUD
A Direct Endorser must submit a mortgage insur­
ance application for each borrower to HUD, together
with documentation of the borrower’s assets and
credit-worthiness, and documentation of the Direct
Endorser’s review and analysis of the loan, including:
a.

The Uniform Residential Loan Application
and Addendum signed and dated by all bor­
rowers and the Direct Endorser. See Credit
Analysis Handbook;

b.

Mortgage Credit Analysis Worksheet where
the Direct Endorser must truthfully and accu­
rately break out and review the borrower’s
available assets and income, versus the ex­
pected costs of both the mortgage and other
fixed payments owed by the borrower. The

App. 71
Direct Endorser further must truthfully apply
HUD-mandated ratios and ratings of the bor­
rower’s credit as well as their current and fu­
ture ability to pay their debts;
c.

Credit Report for all borrowers;

d.

Verification of employment;

e.

Verification of available funds from borrower’s
bank, and the borrower’s most recent bank
statements;

f.

Verification of Rent or Payment History of
Present/Previous Mortgages; and

g.

Settlement Statement (also known as the
“HUD-1”).

Direct Endorsers also electronically submit infor­
mation for mortgage insurance applications to HUD,
including the borrower’s name and social security
number, the property address, the appraiser’s name,
and the borrower’s Qualifying Ratios.
After HUD receives a Direct Endorser’s mortgage
insurance application, HUD will issue a mortgage in­
surance certificate for the mortgage if several criteria
are met, including that the application contains all the
required documentation and that the Direct Endorser
and its Underwriter have made their certifications. 24
C.F.R. § 203.255(c)(l)-(7). As noted above, at all times
relevant to this action Bank of America participated in
the Lender Insurance program, which permitted it to
endorse mortgage loans for FHA mortgage insurance.

App. 72
HUD monitors Direct Endorsers’ compliance with
HUD regulations. HUD tracks the delinquency and de­
fault rates (delinquencies of greater than ninety days)
of borrowers from each approved branch office of a Di­
rect Endorsement mortgage lender for the first two
years of each loan, to detect whether the mortgage
lenders may be violating HUD standards in originat­
ing insured mortgage loans.
HUD’s primary means to monitor compliance with
its underwriting regulations is through the Neighbor­
hood Watch system. HUD monitors compliance with its
underwriting regulations by mortgagees, like Bank of
America, through its Neighborhood Watch system
(“Neighborhood Watch”). Neighborhood Watch is a tool
which identifies lenders, loan types, and locations by
zip code that have a high incidence of single family in­
sured mortgages going into default (90 days delin­
quent) within the first two years after loan origination
(“Early Default Loans”).
The system is designed to highlight exceptions,
so that potential problems are readily identifiable.
Neighborhood Watch is designed as an Early Warning
System and is intended, inter alia, to aid HUD/FHA
staff in monitoring lenders and our programs.
E. Automated Underwriting Systems
A Direct Endorsement Lender may use an FHAapproved automated underwriting system to review
loan applications. The automated underwriting sys­
tem processes information entered by the Direct

App. 73
Endorsement Lender and rates loans as either an
“accept”/“approve” or a “refer’’/“caution.”
In cases where a Direct Endorsement Lender uses
an FHA-approved automated underwriting system,
and the system rates a loan as an “accept” or “approve”,
the Direct Endorsement Lender must make the follow­
ing certification:
This mortgage was rated an “accept” or “ap­
prove” by a FHA-approved automated under­
writing system. As such, the undersigned
representative of the mortgagee certifies to
the integrity of the data supplied by the
lender used to determine the quality of the
loan, that a Direct Endorsement Underwriter
reviewed the appraisal (if applicable) and fur­
ther certifies that this mortgage is eligible for
HUD mortgage insurance under the Direct
Endorsement program. I hereby make all cer­
tifications required by this mortgage as set
forth in HUD Handbook 4000.4.
In cases where a Direct Endorsement Lender uses
an FHA-approved automated underwriting system,
and the system rates a loan as “refer” or “caution,” or
in cases where a Direct Endorsement lender does not
use an FHA-approved automated underwriting sys­
tem, the underwriter must make the following certifi­
cation:
This mortgage was rated as a “refer” or “caution”
by a FHA-approved automated underwriting
system, and/or was manually underwritten by
a Direct Endorsement underwriter. As such,

App. 74
the undersigned Direct Endorsement Under­
writer certifies that I have personally re­
viewed the appraisal report (if applicable),
credit application, and all associated docu­
ments and have used due diligence in under­
writing this mortgage. I find that this
mortgage is eligible for HUD mortgage insur­
ance under the Direct Endorsement program
and I hereby make all certifications required
by this mortgage as set forth in HUD Hand­
book 4000.4.
The certifications in HUD Handbook 4000.4, incor­
porated by reference in the certifications above, in­
clude the certification that the mortgage complies with
HUD underwriting requirements contained in all out­
standing HUD Handbooks and Mortgagee Letters.
Bank of America used an automated underwriting
system referred to as the Countrywide Loan Under­
writing Expert System (“CLUES”). Bank of America
used CLUES to underwrite loans for FHA-insurance.
CLUES interfaced with FHA’s Technology Open to
Approved Lenders (“TOTAL”), an automated tool that
evaluates many of the new loans insured by the FHA.
Lenders certify they are in compliance with require­
ments applicable to the use of TOTAL, including that
they “not disassemble, decompile, reverse engineer,
derive or otherwise reproduce any part of the source
code or algorithm in TOTAL.”
Absent a truthful mortgage eligibility certifica­
tion, a Direct Endorsement Lender may not endorse a
mortgage for FHA insurance.

App. 75
II.

BANK OF AMERICA’S NON-COMPLIANCE
RELATED TO FHA-INSURED LOANS

As of December 31, 2013, Bank of America had
submitted for payment claims for loans that were orig­
inated by the Bank of America and insured by the FHA
on or after May 1, 2009, or for which the terms and
conditions of the mortgage loan were approved by an
FHA direct endorsement underwriter on or after May
1, 2009. Review of Bank of America’s early default
loans indicates that for many loans, Bank of America
did not always meet FHA requirements. The deficien­
cies include non-compliance with the applicable regu­
lations. Bank of America engaged in the following
types of conduct: (a) it did not establish income stabil­
ity; (b) it did not verify income; (c) it inaccurately eval­
uated borrower’s previous mortgage or rental payment
history; (d) it did not account for a major derogatory on
a borrower’s credit; (e) it did not verify and document
earnest money; (f) it did not verify and document
checking and savings account information; (g) it did
not document gift fund monies and verify wire trans­
fers of same; (h) it did not document and verify the
borrower’s investment in the property; (i) it under­
reported borrower liabilities; (j) if did not always pre­
sent adequate compensating factors when the bor­
rower exceeded HUD-established income-to-debt ratios;
and (k) it sometimes incorrectly calculated income for
purposes of such ratios.
Review of samples of FHA loans originated by
Bank of America showed unacceptable rates of mate­
rial underwriting defects.

App. 76
For example, in one instance, Bank of America re­
financed a Countrywide-held non-FHA loan into a gov­
ernment-backed FHA loan. The loan, which was in the
amount of $156,491 for a 24-year-old mobile home, con­
tained numerous unresolved income discrepancies.
The borrower was also delinquent on his initial loan at
the time of closing. In addition, the borrower was im­
properly permitted to roll $12,623 of credit card and
auto debt into the new FHA loan. The borrower made
only two payments before defaulting on the new FHA
loan.
In another example, Bank of America allowed a
borrower to roll $65,356 of credit card debt into a new,
larger refinanced loan insured by the FHA. Bank of
America also failed to verify the borrower’s employ­
ment and omitted the borrower’s debts from the credit
analysis. The original mortgage was $140,000 but
Bank of America refinanced the loan for $207,824 in a
declining market. With respect to another loan, Bank
of America endorsed a loan for FHA insurance even
though the borrower lived with a relative rent-free
and, thus, had no history of paying rent or other hous­
ing expense. Bank of America also did not verify the
borrower’s income, and the borrower was on a leave of
absence from employment eight days prior to closing.
Despite the requirement that the borrower show two
months’ complete bank statements, the borrower’s
bank account was opened a mere twelve days prior to
closing. The borrower made only four payments before
defaulting on the $314,204 FHA loan.

App. 77
When using the CLUES system, Bank of America
sometimes changed an applicant’s financial infor­
mation and then re-submitted the loan multiple times
in an effort to get a CLUES “accept”. For example, in
at least one instance, Bank of America’s underwriter
attempted to get a CLUES accept rating more than
forty times and in other cases underwriters regularly
changed the relevant data and re-submitted the loans
through CLUES more than twenty times. In a case
note, one underwriter characterized what she was do­
ing as trying to “trick” the CLUES system into giving
an “accept” rating.
COUNTRYWIDE AND BANK OF AMERICA ORIGINATIONS SOLD TO GSEs
From at least 2004 through 2008, Countrywide
Home Loans, Inc. and Countrywide Bank, FSB (collec­
tively, “Countrywide”) originated residential mortgage
loans and sold certain of those loans to the Federal
National Mortgage Association (“Fannie Mae”) and the
Federal Home Loan Mortgage Corporation (“Freddie
Mac”) (collectively, “government-sponsored enterprises”
or “GSEs”). After acquiring Countrywide in 2008, Bank
of America, N.A. (“Bank of America”) continued to orig­
inate residential mortgage loans and sell certain of
those loans to the GSEs.
In selling residential mortgage loans to the GSEs,
Countrywide and Bank of America made representa­
tions and warranties to the GSEs that the loans com­
plied in all respects with the standards outlined in

App. 78
the Single Family Selling Guide (the “Fannie Guide”),
Single-Family Seller/Servicer Guide (the “Freddie
Guide”), and the applicable purchase contracts, includ­
ing in the case of Fannie Mae, the Strategic Alliance
Agreements entered into between Fannie Mae and
Countrywide, which collectively set forth underwrit­
ing, documentation, quality control, and self-reporting
requirements.
Countrywide and Bank of America made repre­
sentations and warranties to Fannie Mae concerning
each residential mortgage loan that they originated
and sold to Fannie Mae, including but not limited to,
the following:
a.

The mortgage conformed to all the applicable
requirements in the Fannie Guide and the
purchase contracts;

b.

The mortgage was an “acceptable invest­
ment”;

c.

All required loan data was true, correct, and
complete;

d.

Automated underwriting conditions were met
for loans processed through an automated
underwriting system; and

e.

No fraud or material misrepresentation was
committed by any party, including the bor­
rower.

Countrywide and Bank of America made similar
representations and warranties to Freddie Mac con­
cerning each residential mortgage loan they originated

App. 79
and sold to Freddie Mac, including, but not limited to,
the following:
a.

The terms, conditions, and requirements
stated in the Freddie Guide and purchase con­
tracts were fully satisfied;

b.

All warranties and representations of Coun­
trywide and Bank of America were true and
correct;

c.

The loan was “investment quality”; and

d.

Countrywide and Bank of America had not
misstated or omitted any material fact about
the mortgage.

Countrywide and Bank of America were also
generally required to self-report to Fannie Mae and
Freddie Mac any loans they identified as defective
and/or otherwise ineligible for sale to the GSEs.
A significant percentage of the loans that Country­
wide sold to the GSEs during 2004 to 2008 were origi­
nated by Countrywide’s prime retail division, known
as the Consumer Markets Division (“CMD”). During
this time, Countrywide was aware that many of the
residential mortgage loans originated through CMD
were defective and/or otherwise ineligible for sale to
the GSEs. After acquiring Countrywide Bank in 2008,
Bank of America continued to originate mortgage
loans for sale to the GSEs through its retail lending
channel that were defective and/or otherwise ineligible
for sale to the GSEs.

App. 80
Thus, Countrywide and Bank of America sold res­
idential mortgage loans that they originated to the
GSEs with representations and warranties that the
loans conformed to the Fannie Guide, Freddie Guide
and/or applicable purchase contracts; that the loans
were acceptable investments or investment quality;
that all required loan data was true, correct, and com­
plete; that automated underwriting conditions had
been met; that no material misrepresentations were
committed in connection with the loans; and that they
had not misstated or omitted any material fact about
the loans; when, in fact, many of those representations
or warranties were not accurate, as many of the loans
were defective and/or otherwise ineligible for sale to
the GSEs.
Countrywide and Bank of America also did not
self-report to the GSEs mortgage loans originated
through CMD and Bank of America’s retail lending
channel that were internally identified as defective
and/or otherwise ineligible for sale to the GSEs.
COUNTRYWIDE AND BANK OF AMERICA “PIGGYBACK LOANS”
From at least 2006 through 2013, Countrywide
Financial Corporation, Countrywide Home Loans, Inc.,
Countrywide Bank, FSB, First Franklin Financial
Corp., and Bank of America, N.A. (collectively, “Bank of
America”) originated residential mortgage loans and
sold certain of them to Fannie Mae and Freddie Mac.
Among the loans that were originated were “Piggyback

App. 81
Loans,” i.e., multiple residential mortgage loans made
to the same borrower at the same time on the same
property and which are subject to the same or similar
representations and warranties. Given the nature of
the representations and warranties made with respect
to each loan, if one of the two Piggyback Loans is found
to be defective or otherwise subject to repurchase, the
other frequently will be as well.
Bank of America sold first lien loans from piggy­
back transactions to Fannie Mae and Freddie Mac and
sold such first and second lien loans to RMBS trusts.
In selling residential mortgage loans to the GSEs, rep­
resentations and warranties were made to the GSEs
that the loans complied in all respects with the stan­
dards outlined in the GSE selling guides and sales con­
tracts, which set forth underwriting, documentation,
quality control, and self-reporting requirements. Spe­
cifically, loans sold to Fannie Mae are sold with the
representations and warranties contained in its Single
Family Selling Guide (the “Fannie Guide”) and the
applicable purchase contracts, including in the case of
Countrywide the Strategic Alliance Agreements en­
tered into between Fannie Mae and Countrywide.
Loans sold to Freddie Mac are sold with the represen­
tations and warranties contained in its Single-Family
Seller/Servicer Guide (the “Freddie Guide”) and pur­
chase contracts.
Bank of America made representations and war­
ranties to Fannie Mae concerning each residential
mortgage loan that they originated and sold to Fannie
Mae, including but not limited to, the following:

App. 82
a.

The mortgage conformed to all the applicable
requirements in the Fannie Guide and the
purchase contracts;

b.

The mortgage was an “acceptable invest­
ment”;

c.

All required loan data was true, correct, and
complete;

d.

Automated underwriting conditions were met
for loans processed through an automated un­
derwriting system; and

e.

No fraud or material misrepresentation was
committed by any party, including the bor­
rower.

Bank of America likewise made representations
and warranties to Freddie Mac concerning each resi­
dential mortgage loan sold to Freddie Mac, including
but not limited to, the following:
a.

The terms, conditions, and requirements
stated in the Freddie Guide and purchase con­
tracts were fully satisfied;

b.

All warranties and representations of the
seller were true and correct;

c.

The loan was “investment quality;” and

d.

Bank of America had not misstated or omitted
any material fact about the mortgage.

Bank of America was also generally required to
self-report to Fannie Mae and Freddie Mac any loans
it identified as defective and/or otherwise ineligible
for sale to the GSEs. When purchasing or providing

App. 83
reimbursement for a second lien mortgage that vio­
lated its representations and warranties, Bank of
America did not regularly review the corresponding
first lien mortgage loan that had been sold to Fannie
Mae and Freddie Mac to determine whether it was re­
quired to self-report that loan, and typically did not
self-report the related first lien mortgage loan.

App. 84
[SEAL]

U.S. Trustee Program
HOMEOWNERS IN BANKRUPTCY
MAY BE ELIGIBLE FOR RELIEF

On February 9, 2012, the Attorney General an­
nounced that the federal government and 49 states
had reached a settlement agreement with the nation’s
five largest mortgage servicers to address mortgage
servicing, foreclosure, and bankruptcy abuses. On
April 5, 2012, the settlement was approved by the U.S.
District Court for the District of Columbia.
• The settlement covers home mortgages serviced by
Bank of America, JPMorgan Chase & Co., Citigroup
Inc., Ally Financial Inc./GMAC, and Wells Fargo &
Company (the “Banks”).
• Under the settlement, homeowners in bank­
ruptcy may be eligible for relief.
• The Banks will be required to spend at least $17
billion on various forms of relief for homeowners. For
example, homeowners in bankruptcy may be eligible
for assistance in the form of a loan modification, for­
bearance or forgiveness of principal, short sale, waiver
of deficiency in loan balance, or other relief.
• A fund will be established to provide payments to
borrowers who lost their homes to foreclosure between
January 2008 and December 2011. An administrator
will send claim forms to eligible homeowners. Even if
you are not contacted, if your loan is serviced by

App. 85
one of the Banks, you are encouraged to contact
your Bank to see if you are eligible.
• Participating in the settlement does not release
claims you may have under state or federal law. You
may pursue such claims and accept relief under the
settlement.
• You may also be entitled to relief through the fore­
closure review process being conducted by the Office of
the Comptroller of the Currency (the “OCC”). The set­
tlement does not impact your right to participate in
this process. For more information about that process,
please visit_www.independentforeclosurereview.com or
call 1-888-952-9105.
• A copy of this document and Frequently Asked
Questions (FAQs) for borrowers in bankruptcy are
available at the United States Trustee Program’s Web­
site:
www.justice.gov/ust/eo/publicafFairs/consumerinfo/nms.
• Further information concerning the settlement can
be found at:
www.nationalmortgagesettlement.com.
• Additional resources for consumers are available
at:
www. mortgageoversight. com.

App. 86
;

AlTi:

I:
V

LI

mwnm dM-yMi. g?Ti7 alMlliHKlra

LPj|PaiHL¥»jT

m four altemey should connect 1he
ainmi;*'

I
i

m

Banle-of America —1=077-408-78.14
■Chase- - 1-MB~372=8Saii
Oil--^©8-272*4749

i

I;
I:

'

i

If

I:

AHy/GMAC -1 -S0Q-76®-4i22
l

Wells Faipgp =-11=000=288=3212

i

App. 87
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 16-61124-Civ-COOKE/TORRES
CASCADE FALLS CONDO­
MINIUM ASSOCIATION,
INC., et al.,
Plaintiffs,
vs.

ERIC FERRIER,
Defendant.
ORDER DISMISSING
DEFENDANT’S COUNTERCLAIM
THIS MATTER is before me upon Defendant Eric
Ferrier’s Notice of Dismissal without Prejudice (ECF
No. 50). Accordingly, Defendant’s Counterclaim is DIS­
MISSED without prejudice and his Motion for Clar­
ification (ECF No. 44) is DENIED as moot.
DONE and ORDERED in Chambers, at Miami,
Florida, this 11th day of April 2018.
/s/ Marcia G. Cooke
MARCIA G. COOKE
United States District Judge
Copies furnished to:
Edwin G. Torres, US. Magistrate Judge
Eric Ferrier, pro se
Counsel of Record

App. 88
Law Offices
LIEBLER, GONZALEZ & PORTUONDO
Courthouse Tower
44 West Flagler Street
Twenty-Fifth Floor
Miami, Florida 33130
Neda Ghomeshi Esq.
E-Mail ng@lgplaw.com

Telephone: (305)379-0400
Facsimile: (305) 379-9626

December 15, 2017
VIA U.S. MAIL & E-MAIL
Eric Ferrier
178 Columbus Ave.
#237002
New York, NY 10023
646-219-1080
EFCase@outlook.com
Re: Ferrier v. Cascade Falls Condominium
Association, Inc. et al.
Case No. 17-cv-61597-JEM, Southern District
of Florida
LGP File No, 645-17-HLI-3912
Dear Mr. Ferrier:
This is in response to your letter dated December
11,2017, a copy of which is enclosed for your reference.
In your letter, you state that you are responding to a
“recent filing” made by our office and our “lack of due
diligence to requests made under RESPA.” However,
you do not specify, nor can we ascertain, what filing you
claim to be responding to. Similarly, you do not identify
what requests you are referring to in your letter.

App. 89
Accordingly, we ask that you clarify and identify the
filing and the RESPA requests so that we can respond
appropriately.
You also suggest that there is a pending request
for attorneys’ fees and that such fees are deemed rea­
sonable if they equal to less than three percent of the
principal amount owed. Then you state that the HOA
fees exceed that amount. These assertions are confus­
ing and difficult to respond to. First, you have not been
represented by an attorney in the above-mentioned lit­
igation and you are not an attorney admitted to prac­
tice in Florida. Accordingly, we do not see how you
could validly claim to, be entitled to attorneys’ fees.
Second, Bank of America, N.A. does not collect dues for
homeowners’ associations. Therefore, we do not under­
stand your reference to “HOA fees” in connection with
any attorneys’ fees that you may be claiming against
Bank of America. Further, contrary to your statement,
Bank of America has not ignored any discovery de­
mand from you and is not participating—nor has it
participated—in any conspiracy to deprive you of any­
thing. If you feel that you need to obtain discovery in
connection with the above-mentioned litigation, please
refer to the Federal Rules of Civil Procedure for the
proper procedures in seeking documents and infor­
mation.
In your letter, you mention a national settlement
signed in February 2012 and you appear to request
“numbers and other pertinent information.” It is un­
clear, however, what numbers and what information
you seek. You also state that Bank of America has not

App. 90
complied with Administrative Order 09-08, applicable
to foreclosure actions filed after May 1, 2009. It is un­
clear what administrative order you refer to because
you do not specify what court issued that order. Nor is
it clear why such foreclosure order would apply to the
above-mentioned action, which is not a foreclosure ac­
tion. Further, you renew your “demand made under
REPA [sic].” If you desire a meaningful and legally suf­
ficient response to any request, you should make such
requests clear and free of any vagueness and ambigu­
ity. You should refer to the Federal Rules of Civil Pro­
cedure if you feel that you need documents and
information that are relevant to the litigation pending
in the Southern District of Florida, No. 17-cv-61597JEM.
As for your request for a settlement proposal, at
this time, Bank of America does not have a proposal to
make. If you wish to make an offer, please let us know
in writing and we will ensure to ask Bank of America
to consider any such settlement offer from you. Should
you have any questions or concerns, please do not hes­
itate to communicate with us.
Very truly yours,
/s/ Neda Ghomeshi
NEDA GHOMESHI, ESQ.
NG/amm
Enclosures (as stated)

App. 91
Monday, December 11, 2017
Eric Ferrier
178 Columbus Ave #237002
LIEBLER, GONZALEZ New York, NY 10023
Fax 646 219-1080
& PORTUONDO
44 West Flagler Street
Miami, FL 33130
Fax (305) 379-9626
VIA FAX Ref: Ferrier: 17-cv-61597
Attention: Neda Ghomeshi
In response to your recent filing and lack of dili­
gence to requests made under RESPA, please make a
note that it is my understanding that a judgment
based on lack of diligent search and inquiry constitutes
improper service and lacks authority of law. Batchin v.
Barnett Bank of Southwest Fla.. 647 So. 2d 211,213
(Fla. 2d DCA 1994). You are reporting fraudulent in­
formation to my consumer credit files which I am dis­
puting.
Further, Section 701065(2), Fla. Stat. (2010) pro­
vides that “it is not necessary for the court to hold a
hearing or adjudge the requested attorney’s fees to be
reasonable if the fees do not exceed 3 per cent of the
principal amount owed at the time of the filing of the
complaint.” Florida Patient’s Compensation Fund v.
Rowe. 472 So. 2d 1145 (Fla. 1985). the HOA fees clearly
exceed that amount and by ignoring discovery demand
made under RESPA you are clearly taking part of the
conspiracy to deprived me of my right to homeownership.

App. 92
Also, as per understanding, the National Settle­
ment for consumer frauds that you signed in February
2012, related to the Mortgage does release you for pri­
vate claim which includes your obligations under the
Condominium rider, securitization of the mortgage
backed securities which I am herein request numbers
and other pertinent information, mortgage electronic
registration claims which includes your assignment to
the Bank of New York and as the result you have no
comply with the Administrative Order 09-08 that ap­
plies to all residential foreclosure actions involving
homestead properties filed on or after May 1,2009.
I am herein requesting your settlement proposal
and renew my demand made under REPA and request­
ing timelines to be waved as the result of the affirma­
tive conveyance.
Sincerely,
/s/ [Illegible]

App. 93
IN THE UNITED STATED DISTRICT COURT
FOR THE SOUTHER DISTRICT OF FLORIDA
CASE NO. 16-CV-61124-MGC
CASCADE FALLS CONDOMINIUM
ASSOCIATION, INC., et al
Plaintiffs,
v.
ERIC FERRIER
Defendant.
NOTICE OF FILING
COMES NOW the Defendant, CASCADE FALLS
CONDOMINIUM ASSOCIATION, INC., by and
through the undersigned counsel and files this Notice
of Filing Broward Circuit Court’s Order on Cascade
Falls Condominium Association, Inc.’s Motion to Pro­
hibit Pro Se Actions Without Leave of Court and Direc­
tions to Clerk in support of Defendant Cascade Falls
Condominium Association, Inc.’s Reply to Eric Ferrier’s
Opposition to Motion for Remand.
Certificate Of Service Omitted

App. 94
IN THE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT IN
AND FOR BROWARD COUNTY, FLORIDA
ERIC FERRIER,
Plaintiff,
v.

CASE NO.: CACE10041941 (03)
JUDGE: MILY
RODRIGUEZ POWELL

CASCADE FALLS
CONDOMINIUM
ASSOCIATION, INC.,
Defendant.
ORDER ON MOTION TO PROHIBIT PRO SE
ACTIONS WITHOUT LEAVE OF COURT
AND DIRECTIONS TO CLERK
THIS CAUSE came before the court on the “De­
fendant’s Motion to Enter Prefilling Order Prohibiting
Eric Ferrier from Commencing any Pro Se Actions
without Leave of Court,” filed on September 2, 2015.
An evidentiary hearing on the motion was held on
June 2,2016. The Plaintiff failed to appear at the hear­
ing despite being properly noticed by U.S. mail and
email. At the hearing the Court heard testimony from
Carlos Lopez, the President of Cascade Falls Condo­
minium Association and Assistant City Attorney, Alain
Bolieau, for the City of Fort Lauderdale. Based on the
proceedings before the Court and the Courts having re­
viewed the motion and file, heard argument of counsel,

App. 95
taken judicial notice of public records, and being other­
wise advised in the premises, this Court finds:
The Plaintiff, Eric Ferrier, has commenced, prose­
cuted and maintained five cases against the Defend­
ant, Cascade Falls, in the previous five years, four of
which were adversely determined against the Plaintiff.
Further, the Plaintiff has had the following 10 actions
adversely determined against him within the last five
years:
Broward Case No.: COCE-12-011087 Ferrier
v. Cascade Falls Condo
Broward Case No,: CACE-13-003553 Ferrier v.
Cascade Falls Condo
Broward Case No.: COWE-10-010070 Ferrier
v. Atria1
Broward Case No.: COWE-10-012542 Ferrier
v. Inti Star Yacht Racing Ass’n2
Broward Case No.: COWE-09-010218 Ferrier
v. Nezozzi, et al.3
Palm Beach Case No.: 2013 CA 006030 Ferrier
v. Puma Racing Ltd., et al.

1 There were three appeals filed in this case, all of which
were dismissed: CACE-11-017447, CACE-13- 000446, and CACE13-010101.
2 This case was appealed in Broward Case No.: CACE-11020208, which was dismissed.
3 This case was appealed in Broward Case No.: CACE-11026680, which was dismissed.

App. 96
Palm Beach Case No.: 2013 CA 006030 Ferrier
v. Longenecker, et al.
Palm Beach Case No.: 2013 CA 006030 Ferrier
v. Nezozzi, et al.
Palm Beach Case No.: 2013 CA 006030 Ferrier
v. Puma Racing Ltd., et al.
Broward Case No.: CACE-0-041941 Cascade
Falls Condo v. Ferrier
Carlos Lopez was called as a witness by the De­
fendant. Mr. Lopez stated that he has been the Presi­
dent of Cascade Falls Condominium Association for the
last three to four years. He testified as to the Associa­
tion’s frustration with the numerous lawsuits filed by
the Plaintiff against it and that the lawsuits have cost
the Association “north of $20,000 out of our pocket.”
The Assistant City Attorney for Fort Lauderdale,
Alain E. Bolieau, testified that the Plaintiff has filed
six lawsuits that he is familiar with: three against the
City of Fort Lauderdale; two against Mr. Nezozzi, a cli­
ent from when he had his own law firm; and one where
he was personally named as a defendant. The three
against the City were found to be frivolous lawsuits
dealing with causes of action “that weren’t really un­
derstandable.” The case filed against Mr. Boileau per­
sonally was dismissed for failure to state a cause of
action. Default judgments were entered against Mr.
Nezozzi, in the other two cases. After Mr. Bolieau had
the default judgments vacated, the Plaintiff did not
pursue the cases further.

App. 97
The Defendant entered into evidence the March
15, 2016 Deposition of John Thomas, a court reporter
in Omaha, Nebraska. The Plaintiff had contacted Mr.
Thomas’ court reporting service, Thomas and Thomas,
in January of 2010 to act as a court reporter at a dep­
osition and to serve notice of the deposition on the de­
ponent. After the deposition, where the deponent did
not appear, Thomas and Thomas billed the Plaintiff.
The Plaintiff sued Thomas and Thomas for tortious
conduct beginning what Mr. Thomas refers to as “the
nightmare of my court reporting life.” The final order
dismissing the Plaintiff’s appeal was received on May
20, 2015, five and a half years after it began. Mr.
Thomas estimates that his self-represented defense
costs were over $13,000 for a frivolous controversy over
a $220 bill.
Lastly, the Defendant relies on, and entered into
evidence, the “Affidavit of Christopher F. Lanza in Sup­
port of Cascade Falls Condo HOA Inc. Motion to Des­
ignate Eric Ferrier as a Vexatious Litigant,” notarized
on July 15, 2015. Mr. Lanza, a member of The Florida
Bar, represented a defendant in one of the Plaintiff’s
lawsuits. Mr. Lanza found the Plaintiff’s pleadings to
be “nonsensical, rambling and correspondence to [his]
client and the Court bordered on insanity.” The matter
was dismissed and the appeal was also dismissed.
Accordingly, for the above-stated reasons and after
due consideration, it is hereby:
ORDERED AND ADJUDGED that that the
Court has determined that the Plaintiff is a “vexatious

App. 98
litigant” as defined in Florida Statutes § 68.093(2)(d).
Accordingly, the Plaintiff, Eric Ferrier, is prohibited
from commencing pro se any new action in the courts
of the 17th Judicial Circuit, State of Florida, including
the County Court in and for Broward County, Florida,
without first obtaining leave of the Administrative
Judge for the circuit. Disobedience of this Order may
be punished by contempt of court. Leave of court shall
be granted only on a showing that the proposed action
is meritorious and is not being filed for the purpose of
delay or harassment. The Administrative Judge may
condition the filing of the proposed action on the fur­
nishing of security as provided in Florida Statute
§ 68.093, or any successor law.
DIRECTIONS TO CLERK: The Clerk of Court
shall provide a copy of this profiling order to the Clerk
of the Florida Supreme Court. § 68.093(6), Fla. Stat.
The Clerk of Court shall not file any new action,
as defined by Florida Statutes § 68.093(2)(a), by the
Plaintiff pro se unless the Plaintiff has obtained an or­
der from the Administrative Judge permitting such fil­
ing.
DONE AND ORDERED in Chambers, Fort
Lauderdale, Florida, this 26th day of July, 2016.
/s/ Mily R. Powell
MILY RODRIGUEZ POWELL
CIRCUIT COURT JUDGE

App. 99
cc:

Eric Ferrier, pro se Plaintiff, P.O. Box 193, Boca
Raton, FL 33429 and 178 Columbus Avenue
#237002, New York, NY 10023 ejferrier@gmail.
com
Emanuel Galimidi, Esq., Attorney for Defend­
ant, LYDECKER DIAZ, 1221 Brickell Avenue,
Floor 19, Miami, FL 33131-3240 eg@lydeckerdiaz.
com

App. 100
United States District Court for the
Southern District of Florida
Cascade Falls Condominium Association,
Inc. et al v. Ferrier
16-61124
Full docket text for document 34:
ENDORSED Order Remanding Case to State Court;
granting [10] Motion to Remand. Plaintiff’s Notice of
Removal is untimely and does not raise viable claims
under either federal question or diversity jurisdic­
tion .Accordingly, it is ORDERED and ADJUDGED
that Plaintiff’s Complaint is REMANDED to the Cir­
cuit Court of the Seventeenth Judicial Circuit in and
for Broward County, Florida. The Clerk shall CLOSE
this case. All pending motions, if any, are DENIED as
moot. Signed by Judge Marcia G. Cooke on 11/22/2016.
(yli)
NOTICE: If there are sealed documents in this
case, they may be unsealed after 1 year or as di­
rected by Court Order, unless they have been
designated to be permanently sealed. See Local
Rule 5.4 and Administrative Order 2014-69.

App. 101
Your HUD 903 online housing discrimination
form has been submitted!
For additional information please feel free to contact
the U.S. Department of Housing and Urban Develop­
ment, Office of Fair Housing and Equal Opportunity
(FHEO) at the main discrimination hotline number
(800-669-9777) or 800-9279275 for the hearing-im­
paired.

U.S. Department of Housing and Urban Development
451 7th Street S.W., Washington, DC 20410
Telephone: (800) 669-9777 TTY: (800) 927-9275. HUD

App. 102
Recording Requested By
Bank of America
Prepared By: Sandy Alexander
888-603-9011
When recorded mail to:
CoreLogic
450 E. Boundary St.
Attn: Release Dept.
Chapin, SC 29036
DocID# 14215380695314397
Property Address:
530 NE 18th Ct Unit 4
This space for
Fort Lauderdale, FL 33305
Recorder’s use
FL0-AM 15261673
8/16/2011
MIN #: 1000157-0006985381-6 MERS Phone #: 888-679-6377
ASSIGNMENT OF MORTGAGE
For Value Received, the undersigned holder of a Mort­
gage (herein “Assignor”) whose address is 3300 S.W.
34th Avenue, Suite 101 Ocala, FL 34474 does
hereby grant, sell, assign, transfer and convey unto
THE BANK OF NEW YORK MELLON FKA THE
BANK OF NEW YORK, AS TRUSTEE FOR THE
CERTIFICATE HOLDERS OF THE CWABS INC.,
ASSET-BACKED CERTIFICATES, SERIES 200624 whose address is 101 BARCLAY ST - 4W, NEW
YORK, NY 10286
all beneficial interest under that certain Mortgage de­
scribed below together with the note(s) and obligations
therein described and the money due and to become
due thereon with interest and all rights accrued under
said Mortgage.

App. 103
Original Lender:

COUNTRYWIDE HOME
LOANS, INC.

Original Borrower(s):

ERIC FERRIER

Date of Mortgage:

12/7/2006

Original Loan Amount: $220,000.00
Recorded in Broward County, FL on: 12/12/2006,
book OR 43252, page 957 and instrument number
106663409
IN WITNESS WHEREOF, the undersigned has
caused this Assignment of Mortgage to be executed on
8/26/11
MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC.
By: /s/ Jennifer Baker
Jennifer Baker
Assistant Secretary

By: /s/ Thomarat
Lertkulpryad_____
Thomarat Lertkulpryad
Vice President

/s/ Rozan Conteras
/s/ Rachel Shine
Witness: Rozan Conteras Witness: Rachel Shine
State of Arizona
County of Maricopa
On 8/26/11 . before me, Lindsay Thunell
Notary
Public, personally appeared Jennifer Baker and
Thomarat Lertkulpryad of MORTGAGE ELEC­
TRONIC REGISTRATION SYSTEMS, INC., whose
identity was proven to me on the basis of satisfactory
evidence to be the person(s) who he/she/they claims to
be and whose name(s) is/are subscribed to the within

App. 104
instrument and acknowledged to me that he/she/they
executed the same in his/her/their authorized capacity(ies), and that by his/her/their signature(s) on the
instrument the person(s), or the entity upon behalf of
which the person(s) acted, executed the instrument.
IN WITNESS WHEREOF, I have hereunto set my
hand and affixed my notarial seal the day and year last
written.
AVVv N

/s/ Lindsav Thunell
Notary Public:
/s/ Lindsay Thunell
My Commission Expires:
11/14/14

/\/\.

■''X/'V '\/‘\/\/\ ^

( NOTARY PUBLIC
\ STATE OF ARIZONA
^[SEAL] Maricopa
County
5
l LINDSAY THUNELL $
f My Commission Expires i.
? November 14,2014 <,
} Commission Number
c
306432
<
<
AAA ' vA,

WV-'A

4

